<html>
<title> - REVIEW OF THE VA AND DOD INTEGRATED DISABILITY EVALUATION SYSTEM</title>
<body><pre>[Senate Hearing 111-913]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-913

    REVIEW OF THE VA AND DOD INTEGRATED DISABILITY EVALUATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/





                  U.S. GOVERNMENT PRINTING OFFICE
 65-146 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director








                            C O N T E N T S

                              ----------                              

                           November 18, 2010
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Johanns, Hon. Mike, U.S. Senator from Nebraska...................     3
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     4
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    47
Brown, Hon. Scott, U.S. Senator from Massachusetts...............    53

                               WITNESSES

Bertoni, Daniel, Director of Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........     4
    Prepared statement...........................................     7
Campbell, John R., Deputy Under Secretary, Office of Wounded 
  Warrior Care and Transition Policy, U.S. Department of Defense.    25
    Prepared statement...........................................    27
    Response to requests arising during the hearing by Hon. 
      Richard Burr...........................................46, 56, 58
Medve, John, Executive Director of VA/DOD Collaboration Service, 
  Office of Policy and Planning, U.S. Department of Veterans 
  Affairs........................................................    30
    Prepared statement...........................................    31
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    33
      Hon. Richard Burr..........................................    36
      Hon. Mark Begich...........................................    43
    Response to request arising during the hearing by Hon. 
      Sherrod Brown..............................................    48

 
    REVIEW OF THE VA AND DOD INTEGRATED DISABILITY EVALUATION SYSTEM

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Brown of Ohio, Burr, Isakson, 
Johanns, and Brown of Massachusetts.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing of the U.S. Senate Committee 
on Veterans' Affairs will come to order.
    Aloha to all of you and welcome to today's hearing on the 
joint VA and DOD Disability Evaluation System.
    VA and DOD used to operate two separate disability 
evaluation systems. With many individuals being evaluated for 
the same condition by both agencies, the redundancy in medical 
examinations and the separate rating processes produced varying 
results and left many servicemembers confused. Since 2007, VA 
and DOD have been testing a streamlined program to integrate 
the two processes. At the heart of this effort is the Joint 
Disability Medical Examination that would replace DOD's Medical 
Evaluation Board Physical Evaluation Board process and VA's 
Disability Compensation Claim process.
    The purpose of today's hearing is to examine how well the 
new system is working. Our review of the program is 
particularly important now because VA and DOD are planning to 
expand the program worldwide. While streamlining the two 
systems is important, the implementation of this joint program 
has not been without problems. At a few pilot sites, VA 
staffing shortages due to a lack of personnel to conduct 
disability medical examinations caused significant delay in the 
processing of servicemembers. There were also personnel 
shortages at DOD among those responsible for guiding 
servicemembers through the new process. Issues of servicemember 
satisfaction and quality-of-life are also of concern.
    Other issues have been identified through committee staff 
oversight and by the GAO in its draft report on the new 
processes. These include problems with integrating VA staff at 
military installations, difficulty in having various IT systems 
work together, and ensuring that an adequate number of DOD 
physicians serve on medical evaluation boards. The Committee 
needs to hear from VA and DOD on how these challenges are being 
addressed.
    I also want to know how the new joint program will affect 
veterans who are waiting to have their claims adjudicated by 
VA. VA is already facing a backlog of claims and medical 
examinations. I am concerned that veterans already in the VA 
system could be adversely affected by the resources being 
diverted to support the new program.
    I want to thank the witnesses for being here today and look 
forward to their testimony.
    Senator Burr, your opening statement please.

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I thank you for 
holding this hearing and I welcome all that are here today. I 
want to take just a moment to go off script, if I can.
    Mr. Chairman, you and I have devoted a great deal of time 
to ensuring that VA honors the veterans who served at Camp 
Lejeune during the three decades when the base water was highly 
contaminated with carcinogens. While that has not been easy, 
there have been some signs of slow progress at the Veterans 
Administration. In September, VA informed the Congress that out 
of approximately 200 claims of exposure its office received 
from Lejeune veterans since March of this year, only 20 have 
been granted. When my staff asked the VA for the justification 
behind the 180 denials, VA said they did not have the 
information that was needed.
    Then last week, I learned that the VA plans to centralize 
the Lejeune claims review process in one regional process in 
Louisville, KY. While this is possibly welcome news, VA did not 
proactively inform me or any member of this significant change 
in the process, and my staff only learned about it from a 
constituent.
    Mr. Chairman, some of us on this Committee have expressed 
concerns and even frustrations with the lack of communication 
and transparency that this Committee receives out of the 
Veterans Administration. This latest episode is another example 
of the broader problem we face with a bureaucratic culture at 
VA that does not welcome oversight and resists information 
sharing. If this Committee is to fulfill its mission to serve 
our Nation's veterans, we need the VA to do a better job of 
holding up their end of the bargain.
    That is my commentary this morning, but this is not 
something that will end with this hearing.
    Now, let us turn to the issue at hand. For any 
servicemember whose medical conditions keep them from 
continuing their service in the military, there must be an 
effective, hassle-free process to get them the benefits and 
services that they need and help them to smoothly transition to 
civilian life.
    But several years ago, it became clear that the disability 
system at the Department of Defense and at the VA was not 
living up to that standard. In 2007, the news reports as well 
as several panels of experts detailed how injured 
servicemembers had to go through a long bureaucratic process at 
DOD, followed by a similar process at the VA, to find out what 
disability benefits they would receive. Wounded servicemembers 
and their families were becoming frustrated, confused, and 
disappointed with both systems.
    Since then, DOD and VA have joined efforts to improve this 
process by piloting an Integrated Disability Evaluation System. 
This allowed injured servicemembers to find out what benefits 
they will get from both agencies before being discharged from 
the military. A single set of medical examinations are used by 
both agencies and VA assigns the disability ratings that govern 
what benefits are provided by both VA and DOD.
    Our witnesses today will testify that this joint process 
has shown potential to reduce delays and confusion in getting 
benefits from both agencies. In fact, DOD and VA believe the 
pilot was a success and plan to roll out the program to sites 
worldwide, including several bases in North Carolina.
    But as we will discuss today, this pilot did have a number 
of significant challenges. Pilot sites ran into logistics 
problems, staffing shortages, surges in caseload, and other 
issues that led to long delays for servicemembers. On top of 
that, servicemembers have expressed concerns about the quality 
of their life while going through this process. Some have 
pointed out that they were not given meaningful work to do and 
spent too much time being idle. Others are frustrated that they 
cannot accept civilian jobs, enroll in school, or otherwise 
plan for civilian lives because they just do not know how long 
the process will take. As one Marine from Camp Lejeune put it, 
DOD and VA should, ``set a time and date so we can plan our 
lives.''
    Mr. Chairman, I realize that DOD and VA are taking steps to 
address many of these challenges and I look forward to hearing 
about those efforts today, particularly now as these agencies 
plan to expand this process to more sites. We need to be sure 
that these sites would be ready with the staff, with the 
facilities, and the other tools they need to provide wounded 
servicemembers with the high level of service that they have 
earned, and more importantly, they deserve. More importantly, 
we must make sure that whatever system is in place meets the 
needs of wounded servicemembers and their families and actually 
helps improve their lives.
    With that in mind, Mr. Chairman, I hope that we will have a 
candid discussion today about how to best move forward with 
improving the Disability Evaluation System for our Nation's 
injured veterans. I thank the Chair once again. I yield.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Burr, we have worked so well together. He has been 
a leader in the Camp Lejeune issue. I just want him to know 
that I will continue to work with him in all oversight issues.
    Now, we will hear the opening statement of Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                    U.S. SENATOR FROM NEVADA

    Senator Johanns. Mr. Chairman, thank you. Mr. Chairman and 
Ranking Member, thank you for your efforts to put this hearing 
together. To our witnesses, I really appreciate you being with 
us today.
    I am sure all of us would agree it is important to make the 
process by which our servicemembers access the benefits they 
deserve as straightforward as we can. I am always going to be 
willing to support efforts to streamline that process and I 
commend all those with the VA who have spent countless hours 
attempting to solve this backlog issue which we never get too 
far away from on this Committee.
    I participated in the Senate Veterans' Affairs Committee 
hearing in July 2009 when we heard an assessment of the pilot 
program and I look forward to hearing the testimony today about 
progress, improvements, and what next steps might be.
    I am encouraged that the pilot program has the potential to 
effectively assess servicemembers' fitness and provide 
disability ratings. I am concerned that some of the problems 
associated with the pilot maybe have not yet been resolved, and 
I am anxious to hear about that. It is my hope that DOD and VA 
are working hard to implement some of the lessons learned from 
the pilot program so we can provide our veterans with benefits 
quickly and efficiently.
    To our witnesses, again, thank you for being here. I look 
forward to the testimony. I know we are all working hard to 
deal with these issues and my hope is we continue to see 
progress.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Johanns.
    Now we have the opening statement of Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman, for calling this 
hearing. Thank you, Mr. Chairman, for calling this hearing. I 
look forward to hearing from our witnesses and having a good 
discussion on how we can improve the disability evaluation 
system for our Nation's injured servicemembers.
    Chairman Akaka. Thank you very much, Senator Isakson.
    I want to welcome the witnesses on today's panel. In the 
interest of opening a dialog amongst our witnesses, we have 
only one panel.
    First, we have Daniel Bertoni, Director of Education, 
Workforce, and Income Security Issues at the Government 
Accountability Office; next, we have John R. Campbell, Deputy 
Under Secretary, Office of Wounded Warrior Care and Transition 
Policy at the Department of Defense; and we have John Medve, 
Executive Director of VA/DOD Collaboration Service, Office of 
Policy and Planning of the Department of Veterans Affairs.
    I thank all of you for being here this morning. Your full 
testimony will appear in the record.
    Mr. Bertoni, you are now recognized for 5 minutes, and then 
we will move to Mr. Campbell and Mr. Medve. Mr. Bertoni?

STATEMENT OF DANIEL BERTONI, DIRECTOR OF EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Bertoni. Mr. Chairman, Members of the Committee, good 
morning. I am pleased to comment on the Departments of Defense 
and Veterans Affairs' efforts to integrate and streamline their 
Disability Evaluation Systems.
    More than 40,000 servicemembers have been wounded or 
injured in Iraq and Afghanistan, and many who cannot continue 
their military service must navigate complex Disability 
Evaluation Systems in both DOD and VA. GAO and others have 
identified problems with these systems, including delayed 
decisions, duplication of processes, and confusion among 
servicemembers.
    In 2007, DOD and VA designed and piloted an Integrated 
Disability Evaluation System, or IDES, with a goal of improving 
and expediting the delivery of benefits to servicemembers. My 
statement today will briefly summarize key findings of our 
pending report, which examined the agency's evaluation of the 
pilot results, implementation challenges to date, and DOD and 
VA's effort to mitigate those challenges.
    In summary, in their August 2010 evaluation report, the 
agencies noted that the pilot has improved servicemember 
satisfaction relative to the legacy system and met their target 
goals for delivering VA benefits to active duty and reserve 
members within 295 and 305 days, respectively. Despite meeting 
the overall timeliness goals, we found that not all service 
branches achieved the same results. Only the Army, which 
represents about 60 percent of all IDES cases, was successful, 
while average processing times for the Navy, Air Force, and 
Marines were substantially higher.
    We also found that as caseloads have increased, processing 
times have also steadily increased, with most recent data 
showing average processing times for active duty and reserve 
members at 317 and 310 days, respectively. Despite this trend, 
the current processing time is likely an improvement over the 
540 days the agencies estimate that it takes to obtain VA 
benefits under the legacy system.
    DOD and VA have encountered several implementation 
challenges with the pilot that contributed to delays in 
processing claims. For example, nearly all the sites we visited 
experienced staffing shortages to some degree, often due to 
workloads exceeding original projections. Shortages and delays 
were most severe at large pilot sites. Caseload surges related 
to deployments at one location due to the VA medical staff 
shortages took 140 days to complete the single disability exam, 
well in excess of the pilot's 45-day goal.
    We identified other issues and delays associated with the 
single exam, such as problems with the completeness and clarity 
of exam summaries and disagreements between DOD and VA medical 
staff on some diagnoses. Pilot sites also experienced 
logistical challenges, such as incorporating VA staff into 
military facilities and housing servicemembers awaiting 
decisions on their case.
    As DOD and VA prepare for rapid expansion worldwide, they 
are taking steps to address several key challenges. This 
includes increasing exam and case management personnel via 
additional hiring, staff reallocations, and increased 
contracting; requiring local facilities to develop contingency 
plans for addressing caseload surges; and making policy and 
procedural changes to improve the quality of exam summaries. 
While these initiatives are promising, DOD and VA still lack 
strategies for ensuring enough military physicians are in place 
to handle projected workloads and a systemwide mechanism to 
monitor and address local-level challenges, such as sudden 
staffing changes or problems with medical diagnoses.
    In conclusion, by integrating two duplicative Disability 
Evaluation Systems, the IDES shows promise for expediting the 
delivery of benefits to returning wounded warriors. However, 
the pilot has revealed challenges that require careful 
management attention and oversight. It is unclear whether these 
challenges will be sufficiently addressed prior to worldwide 
implementation. Accordingly, our final report will include 
recommendations to further improve DOD and VA's planning for 
expansion of the new system going forward and we look forward 
to continuing to work with the agencies on this important 
issue.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you and other Members of the 
Committee may have. Thank you.
    [The prepared statement of Mr. Bertoni follows:]
Prepared Statement of Daniel Bertoni, Director of Education, Workforce, 
      and Income Security Issues, Government Accountability Office

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Mr. Bertoni.
    Mr. Campbell, will you please proceed with your statement.

   STATEMENT OF JOHN R. CAMPBELL, DEPUTY UNDER SECRETARY OF 
  DEFENSE (WOUNDED WARRIOR CARE AND TRANSITION POLICY), U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Campbell. Good morning, Mr. Chairman, Ranking Member 
Burr, and Members of the Committee. Thank you for the 
opportunity to be here this morning with Mr. Bertoni from the 
Government Accountability Office and John Medve from the 
Department of Veterans Affairs. I am pleased to discuss the 
current status of the Integrated Disability Evaluation System 
and the plans DOD and VA have for its worldwide expansion. We 
appreciate the opportunity to explain where we have been and 
where we are going with regards to IDES, formerly the 
Disability Evaluation System Pilot. All DES programs are joint 
efforts between DOD and VA.
    Until recently, the non-VA Integrated DES, known as the 
legacy system, was relatively unchanged until public and 
Congressional concern arose regarding its perceived 
inadequacies. Some are legitimate, verifiable, and required 
response. DOD and VA chartered the Wounded, Ill, and Injured 
Senior Oversight Committee in November 2007, and the SOC 
immediately recommended that a new DES pilot be created. The 
SOC's vision for the pilot was to create a servicemember-
centric seamless and transparent DES. The goal is simplifying 
and improving the transparency of the disability evaluation 
process, reducing case processing times, and increasing 
consistency of ratings. This is accomplished, in part, by 
employing a single medical exam process and single source 
disability rating.
    On July 30, 2010, the SOC co-chairs, the Deputy Secretary 
of Defense and the Deputy Secretary of Veterans Affairs, 
directed worldwide implementation of the process, beginning in 
October 2010 and to be completed at the end of September 2011. 
The decision to move forward with expansion of the pilot, 
subsequently named IDES, was based on the high satisfaction 
rate of servicemembers, demonstrated efficiency, and lessons 
learned from the pilot.
    In preparation for the IDES expansion, VA and DOD will 
conduct joint site planning conferences for each stage. The 
conferences will bring together the local VA and DOD site 
officials responsible for the implementation of the IDES in 
their own geographic areas. These joint conferences will 
engender frank discussions of the goals and milestones that 
must be met prior to each site's initial operating capability. 
In addition, training will occur for Patient Administration 
Personnel, PEBLOs, Military Services Coordinators, and 
physicians. Detailed site assessment matrices and checklists 
will be completed and signed by DOD and VA officials. Strict 
certification procedures will be followed and approved by 
senior levels of leadership in VA and military departments 
before a site may implement the IDES. Last, sites will also 
provide 30-day post-implementation written assessment 
``hotwashes.''
    The DES pilot process has proven to be a success. It was 
faster, more transparent, more understandable, and provided 
more consistent, equitable outcomes than the legacy DES. As a 
result, both DOD and VA are fully committed to the successful 
worldwide expansion of IDES within the timelines discussed in 
my written statement. DOD will continue to work closely with 
VA, monitoring every facet of the expansion and making 
adjustments as necessary.
    Although IDES is a demonstrated process improvement over 
the legacy system, we can and will continue to improve. We are 
also in the process of thoroughly reviewing the recent 
Government Accountability Office draft report related to the 
Disability Evaluation System. Although we will be providing 
official comment at a later date, we are likely to concur with 
their initial findings.
    In closing, I would like to thank the Committee for its 
continued interest and leadership in this very important 
program. We are mindful of the concerns raised by the Committee 
in recent months and are taking them into account as we move 
forward with the expansion.
    Mr. Chairman, this concludes my statement. On behalf of 
recovering and transitioning men and women in the military 
today and their families, I thank you and the Members of the 
Committee for your steadfast support. I am happy to answer any 
questions you may have at this time.
    [The prepared statement of Mr. Campbell follows:]
Prepared Statement of John R. Campbell, Deputy Under Secretary, Office 
   of Wounded Warrior Care and Transition Policy, U.S. Department of 
                                Defense
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to discuss the current status of the Integrated Disability 
Evaluation System (IDES) and Department of Defense (DOD), and 
Department of Veterans Affairs (VA) plans for worldwide expansion of 
IDES. We appreciate the chance to explain where we have been and where 
we are going with regards to the IDES, formerly the Disability 
Evaluation System (DES) Pilot.
    The IDES integrates DOD and VA DES processes. During the IDES 
process, the member receives a single set of physical disability 
examinations conducted according to VA examination protocols, and then 
disability ratings are prepared by VA. During the IDES, both 
Departments are conducting simultaneous case processing--this ensures 
the timely and quality delivery of disability benefits. Both 
Departments use the VA protocols for disability examination and the VA 
disability rating to make their respective determinations. DOD 
determines fitness for duty and provides compensation ratings for 
unfitting conditions incurred in the line of duty under title 10, 
United States Code (U.S.C.), while VA provides compensation ratings for 
all disabilities incurred or aggravated during military service for 
which a disability rating is awarded and thus establishes eligibility 
for other VA benefits and services, in accordance with title 38, 
U.S.C.. The systems are integrated, not merged. The IDES requires the 
Departments to complete their disability determinations before DOD 
separates a Servicemember so that both Departments can validly 
determine a Servicemember's disability and provide disability benefits 
at the timeliest point allowed under both titles. Servicemembers who 
separate or retire (non-disability) may still apply to the VA for 
service-connected disabilities and be compensated by the VA, in 
accordance with current policies and processes.
                               background
    The genesis of the current Disability Evaluation System is the 
Career Compensation Act of 1949. Until recently, the legacy system (the 
non-VA integrated DES) was relatively unchanged until public concern 
arose regarding perceived inadequacies of the DES. As a result of 
public concern and congressional interest, DOD and the VA chartered the 
Wounded, Ill and Injured (WII) Senior Oversight Committee (SOC) in 
November 2007. The SOC immediately recommended that a new DES Pilot be 
created. The SOC vision for the DES Pilot was to create a 
``Servicemember Centric'' seamless and transparent DES, administered 
jointly by the DOD and VA. The SOC intended the DES Pilot to:

    <bullet> Simplify the disability evaluation process: Make the 
process easier for Servicemembers, veterans, and families by 
eliminating the duplicate requirements placed on them so the process is 
less complex and non-adversarial.
    <bullet> Improve the Transparency of the disability evaluation 
process: Employ a recognized, impartial disability evaluation process.
    <bullet> Increase Consistency: Ensure Servicemembers and veterans 
with similar levels of disability receive similar benefits outcomes by 
standardizing processes and increasing oversight.
    <bullet> Ensure Appellate Procedures: Protect the due process 
rights of Servicemembers and veterans.
    <bullet> Reduce Case Processing Time: Reduce the wait 
Servicemembers and veterans experience between the point they are 
referred to the DES until they receive VA benefits.
    <bullet> Employ a single medical exam and single-source disability 
rating.
    <bullet> Ensure seamless transition to Veteran status.
    <bullet> Ensure a continuum of care--advocacy and expectation 
management.
                         des pilot performance
    As we reported to Congress in August of this year, Active component 
members completed the IDES in an average of 291 days, 46 percent faster 
than a sample of legacy DES cases, and Reserve component members 
completed the IDES in an average of 281 days. A single VA examination 
and rating source for Servicemembers streamlined the process, reducing 
the gap between separation/retirement from Service to receiving VA 
benefits. There has also been increased transparency through better 
information flow to Servicemembers and their families. Moreover, DES 
Pilot surveys reflect a higher Servicemember satisfaction with the IDES 
compared to the legacy DES. The DES Pilot is a demonstrated process 
improvement over the legacy, but we can, and will, continue to improve.
                            lessons learned
    Of the current 27 DES Pilot locations, most have successfully 
implemented the DES Pilot and are examples of efficiency. However, both 
DOD and VA have examined improvement opportunities identified during 
the Pilot and have taken appropriate action to address them. Site 
Certification procedures, conducted by DOD and VA senior leadership, 
were developed to ensure each future IDES location is prepared to 
implement the IDES. Site certification ensures appropriate exam 
coverage, a completed Memorandum of Agreement (MOA) between VA and DOD, 
sufficient resources (Physical Evaluation Board Liaison Officers 
(PEBLOs), Military Services Coordinators (MSCs), provider staffing), 
adequate facilities (sufficient space and equipment for VA and DOD 
personnel), sufficient IT resources, required IDES training, and a 
comprehensive communications plan. VA is also planning for increased 
exam capacity before a site is declared open for IDES, and Military 
departments will work closely with local VA facilities on unanticipated 
surges in demand while VA will develop additional exam capacity for 
demand spikes.
    In order to improve awareness of Servicemember progress in the 
IDES, improvements are being made to the current tracking system, the 
Veteran Tracking Application (VTA), so that it collects performance 
data in a more timely and efficient manner. Shortages of PEBLOs are 
also being addressed DOD-wide through funding and improved force 
management. We are also refining operational and performance objectives 
to more clearly address potential problem areas at the operational and 
tactical levels. Findings from the DES Pilot are being utilized to 
inform the setting of improved performance objectives that are 
realistic and reflective of the actual IDES experience. DOD is also 
studying conditions that cause referral to the IDES, with the intent of 
tightening policy or aligning toward capability assessments, in order 
to reduce superfluous referrals in which Servicemembers were returned 
to duty more often than not.
    Additionally, VA is adding supplemental medical examination 
contract capability to be in place by December 31, 2010. Virtual 
Lifetime Electronic Record (VLER), interoperability between DOD's and 
VA's electronic health records (AHLTA and VISTA, respectively), and 
IDES IT initiatives will increase health record sharing and build DOD/
VA interfaces, pertinent to more efficient handoffs between VA and DOD.
               case study of success--fort riley, kansas
    While we have noted areas that are improving based on opportunities 
identified during the DES Pilot, we would also like to single out one 
location that we hold up as an example of DES Pilot success, Fort 
Riley, Kansas. This location is an example of the impact that dedicated 
and energized leadership has on the DES Pilot. At Fort Riley, key 
senior leaders were intimately involved from the early onset of the DES 
Pilot. Leaders took lessons learned from the conferences, hotwashes, 
and after-action-reports and liaised directly with VA counterparts to 
develop a joint common operating concept and conducted joint 
contingency site planning before initiation of the DES Pilot. Monthly 
Fort Riley/DOD/VA meetings enabled development of crucial working 
relationships, and review of DES Pilot procedures allowed for 
identification of issues and established a schedule for resolution of 
action items prior to implementation of the DES Pilot on February 1, 
2010. Fort Riley developed a ``one-stop'' Medical Evaluation Board 
(MEB) clinic. This clinic performs a thorough case evaluation before 
referral to the DES Pilot, thus preventing cases from starting the DES 
Pilot prematurely and reducing potential delays. The MSCs and Army Out-
Reach Counselors are co-located with the Army PEBLOs, greatly improving 
process workflow and communications between the VA and DOD. As a result 
of these concerted efforts, the current average days to complete IDES 
processing at Fort Riley is 231 days, which is a savings of 309 days 
over the 540-day legacy DES benchmark and a 60-day savings over the 
IDES average of 291 days. Fort Riley has emerged as the model for other 
sites to emulate.
                        worldwide ides expansion
    Based on the high satisfaction rate of Servicemembers, demonstrated 
efficiency, and lessons learned from the DES Pilot, the SOC Co-chairs 
(Deputy Secretary of Defense and Deputy Secretary of Veterans Affairs) 
on July 30, 2010, directed worldwide implementation of the process 
beginning in October 2010 and to be completed at the end of 
September 2011. Because it is no longer a pilot, the name was changed 
to IDES. The Under Secretary of Defense (USD) for Personnel and 
Readiness (P&R) signed a memorandum on August 16, 2010 asking Service 
Secretaries to take action to expand the IDES.
    The DES Pilot's 27 locations cover about 47 percent of 
Servicemembers (12,735) who enter the DOD disability evaluation system 
annually. The impact of each stage of the IDES expansion and cumulative 
DES population is shown below:

    <bullet> Stage I--West Coast & Southeast (October-December 2010)--
28 Sites--58%
    <bullet> Stage II--Mountain Region (January-March 2011)--24 Sites--
74%
    <bullet> Stage III--Midwest & Northeast (April-June 2011)--33 
Sites--90%
    <bullet> Stage IV--Outside Continental United States (OCONUS)/CONUS 
(July-September)--28 Sites--100%
    <bullet> Total IDES locations when expansion is complete: 140

    In preparation for the IDES expansion, VA and DOD will conduct Site 
Planning Conferences for each stage. These conferences will bring 
together the local VA and DOD site officials responsible for the 
implementation of the IDES in their own geographic areas. These joint 
conferences will engender frank discussions of the goals and milestones 
that must be met prior to each site's Initial Operating Capability 
(IOC). In addition, training will occur for Patient Administration 
personnel, PEBLOs, MSCs and Physicians. Detailed Site Assessment 
Matrices and Checklists will be completed and signed by the DOD and VA 
officials and strict certification procedures will be followed and 
approved by senior levels of leadership in VA and the Military 
Departments before a site may implement the IDES. Sites will also 
provide 30 day Post-IOC written assessment ``hotwashes.''
    With regards to Stage I, the Military Departments are reporting 
December 31 as the Stage I IOC date for the next 28 sites. Seventeen of 
the 28 Stage I expansion sites will rely on VA contracts for medical 
exam coverage; as a bridge to other in-house services, VA contracts for 
medical exams have been awarded and are available for sites to meet the 
December 31 IOC. The Deputy Secretary of Defense tasked the Assistant 
Secretary of Defense, Health Affairs, to develop a plan for overseas 
IDES exams with an estimated completion date of December 15, 2010.
                                closing
    We appreciate the Committee's continued interest and leadership in 
this very important program and we are mindful of the concerns raised 
by the Committee in recent months as we move forward with the 
expansion. Under the Legacy DES, the Departments administered duplicate 
disability examinations and ratings. The DES Pilot improved and 
streamlined the overall process that Servicemembers and their families 
navigate to reach Veteran status to receive the compensation and 
benefits they have earned. The DES Pilot process has proven to be a 
success; it was faster, more transparent, more understandable, and 
provided more consistent, equitable outcomes than the legacy DES. As a 
result, both DOD and VA are fully committed to the successful worldwide 
expansion of IDES within the timelines discussed in this statement. DOD 
will continue to closely work with VA, monitoring every facet of the 
expansion and making adjustments as necessary. We are also in the 
process of thoroughly reviewing the recent Government Accountability 
Office (GAO) draft report, ``Military and Veterans Disability System: 
Pilot has achieved Some Goals, Further Planning and Monitoring Needed'' 
and will be providing official comments at a later date.

    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
Members of this Committee for your steadfast support. We will continue 
to provide regular updates on our progress.

    Chairman Akaka. Thank you very much, Mr. Campbell.
    Mr. Medve, will you please proceed with your statement.

     STATEMENT OF JOHN MEDVE, EXECUTIVE DIRECTOR OF VA/DOD 
  COLLABORATION SERVICE, OFFICE OF POLICY AND PLANNING, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Medve. Good morning, Chairman Akaka, Ranking Member 
Burr, and Members of the Committee. My name is John Medve and I 
am the Executive Director of the Department of Veterans Affairs 
and Department of Defense Collaboration Service within VA's 
Office of Policy and Planning. I am pleased to join Mr. Daniel 
Bertoni with GAO and Mr. John Campbell, Deputy Under Secretary 
of Defense, Wounded Warrior Care and Transition Policy, and 
provide the Committee with an overview of VA and DOD plans for 
the way forward with the Integrated Disability Evaluation 
System.
    I welcome today's opportunity to share with you a good news 
story with respect to the improvements VA and DOD have made to 
the DOD Disability Evaluation System. When we started the DES 
pilot in 2007 within the National Capital Region, the 
Departments recognized that by working together and through an 
improved process, we could provide more consistent evaluations, 
faster decisions, and more timely delivery of VA benefits. I 
believe that we have achieved those goals and I would like to 
highlight two points.
    First, through the improved DES process, now referred to as 
the Integrated Disability Evaluation System, we are providing a 
more seamless transition for participating servicemembers to 
veteran status. We have also virtually eliminated the pay gap 
felt by veterans under the legacy Disability Evaluation System 
resulting from delays in the delivery of VA compensation. These 
results led the Senior Oversight Committee in July of this year 
to approve expansion from the original 27 pilot sites to an 
enterprise-wide IDES implementation.
    Second, through the DES pilot and with the implementation 
of IDEA, VA and DOD have developed, instituted, and are 
sustaining a positive collaborative relationship at all levels, 
focused on both solving the challenges of the rise during this 
implementation, improving the overall process in a manner that 
will ensure our servicemembers are treated with the dignity and 
respect they deserve, and receive the benefits they have earned 
in a timely manner.
    Implementing a process enterprise-wide is never without its 
challenges, and IDES has proved to be no exception. The key 
point I would like to make is that, together, VA and DOD are 
taking a critical eye to each stage of the implementation, 
identifying issues, and working toward resolving them. The 
draft GAO report which Mr. Bertoni described in his opening 
statement and to which VA is currently responding highlighted 
several of these issues, including timeliness of examinations 
at Fort Carson. I am pleased to report that we have made 
tremendous progress at Fort Carson with respect to the time 
needed to complete examinations, which have gone from an 
average of 140 days, as outlined in the report to, in this 
latest report, 62 days, and is projected to be within the 45-
day goal by the end of December.
    We are also taking into consideration GAO's concerns about 
staffing levels and are evaluating a mechanism for reporting 
staffing levels from the various sites on a regular basis. We 
are applying the lessons learned from the pilot experiences we 
expand to ensure that new sites have the resources and a plan 
for implementation in place before they go live with IDES. Of 
note, we now have a much better understanding of the number of 
MEBs each site expects monthly and annually, and this is 
translating into appropriate staffing levels. We believe that 
through our improved site assessment and certification process, 
we will reduce the likelihood of the staffing shortages found 
at some pilot sites. In addition, we are going back to the 
existing 27 sites and ensuring that they meet the same 
standards as the new sites as we move forward.
    I would like to thank the Committee for their concern and 
oversight of this important issue. You and the Committee staff 
have helped us to improve this process. At the end of the day, 
we should not lose sight of the fact that this is all about 
taking care of servicemembers and veterans.
    The chart on page four of GAO's testimony is very 
demonstrative of what we have achieved by integrating the VA 
into the DOD disability process by eliminating the need for a 
separate and distinct evaluation process for the purpose of 
receiving VA benefits. Thank you again for your support of our 
wounded, ill, and injured servicemembers, veterans, and their 
families.
    Mr. Chairman, this concludes my opening statement. I will 
be happy to respond to any questions that you, Ranking Member 
Burr, or other Members of the Committee may have.
    [The prepared statement of Mr. Medve follows:]
    Prepared Statement of John Medve, Executive Director of VA/DOD 
 Collaboration Service, Office of Policy and Planning, U.S. Department 
                          of Veterans Affairs
    Good morning, Chairman Akaka and Members of the Committee. My name 
is John Medve, and I am the Executive Director of the Department of 
Veterans Affairs (VA)/Department of Defense (DOD) Collaboration Service 
for VA's Office of Policy and Planning. I am pleased to join my 
colleague Deputy Under Secretary Campbell from the DOD and provide the 
Committee with an overview of VA's and DOD's plans for the way forward 
with the Integrated Disability Evaluation System (IDES).
    First, I want to acknowledge and thank you, Mr. Chairman, and the 
other Members of this Committee for the leadership role you have taken 
on the issues of seamless transition for our wounded, ill, and injured 
warriors and Veterans.
    The IDES is central to Secretary Shinseki's efforts to transform 
the Department into a high performing 21st century organization focused 
on our Nation's Veterans as its clients. IDES, along with our work on 
the Virtual Lifetime Electronic Record (VLER), will improve the 
seamless transition of our Servicemembers from active duty to Veteran 
status. The end goal is for Veterans to be able to easily enter the VA 
health and benefits system and receive the care and services they have 
earned.
    Before going into our plans for the way forward, I think it would 
be helpful to start with how we got to where we are today.
    Through the leadership of Congress, in collaboration with VA and 
DOD, in early 2007, the Departments realized that changes were needed 
to the existing process in DOD's disability evaluation system (DES). 
The VA/DOD DES Pilot was launched in November 2007 and was intended to 
simplify and increase the transparency of the DES process for the 
Servicemember while reducing the processing time and improving the 
consistency of ratings for those who are ultimately being medically 
separated. The National Defense Authorization Act (NDAA) 2008 further 
energized our efforts when it was signed into law and authorized the 
creation of a pilot program to make changes and improve DOD's DES. 
Through these changes, the Departments hoped to provide a more 
effective transition of Servicemembers from DOD to VA care and a 
smoother transition to Veteran status. We believe that the resulting 
DES Pilot, currently operational at 27 sites nationwide, has largely 
achieved those goals. I acknowledge that there have been bumps in the 
road and many lessons learned, but I look forward to sharing with you 
how VA has worked with its DOD partners to create a more transparent, 
consistent and expeditious disability evaluation process for 
Servicemembers who are being medically retired or separated. While we 
recognize that challenges remain, overall this is a good news story for 
Servicemembers and Veterans.
    From the outset, we recognized that the DES Pilot Model was 
preceded by a maligned legacy process that was in some cases cumbersome 
and redundant. The Pilot Model originally was launched as a joint VA/
DOD process at three operational sites in the National Capital Region 
and was recognized as a significant improvement over the legacy 
process. As a result of the desire by both Departments to expand the 
benefits of the Pilot to more Servicemembers, VA and DOD expanded the 
Pilot, starting in the fall of 2008 and ending in March 2010, from the 
original 3 to the current 27 Pilot sites covering 47 percent of the DES 
population.
    In contrast to the DES legacy process, the Pilot Model provides a 
single disability examination and a single-source disability rating 
that are used by both Departments in executing their respective 
responsibilities. This results in more consistent evaluations, faster 
decisions, and timely benefit delivery for those retired or separated, 
while empowering Servicemembers with essential information to better 
enable them to transition to civilian life. I would like to highlight 
the improvements we have made to compensation delivery. VA prepares a 
proposed rating decision for use by DOD in determining fitness for duty 
for Servicemembers enrolled in the DES. As a result, VA benefits are 
delivered within the shortest period allowed by law following 
discharge, and we have eliminated the ``pay gap'' that previously 
existed under the legacy process, i.e., the lag time between a 
servicemember separating from DOD due to disability and receiving his 
or her first VA disability payment.
    Concrete examples of how our integrated approach has eliminated 
much of the sequential and duplicative processes found in the legacy 
system include reduction of the overall processing time for the 
delivery of DOD disability benefits from 540 days to 291 days while 
shortening the period until delivery of VA disability benefits after 
separation from an average of 166 days to near 30 days.
    Based on these successes and after carefully addressing your IDES 
expansion concerns, the co-chairs of the Senior Oversight Committee 
agreed in July 2010 to expand the pilot and rename it IDES. Senior 
leadership of VA, the Armed Services, and the Joint Staff strongly 
supported this plan and the need for all Servicemembers to receive the 
benefits of this improved pilot model. We are now working together to 
launch IDES enterprise-wide. While we are very proud of the successes 
of this model, we are also aware of remaining challenges. We recognize 
that despite the overall reduction in combined processing time, VA can 
do better by improving exam timeliness. We also recognize that as we 
expanded outside of the National Capital Region, we had not yet 
developed robust business processes to certify each site's preparedness 
before it became operational. This was a lesson learned at Ft. Carson, 
where the Departments have aggressively worked to remediate the issues 
of an unanticipated demand for disability exams. We also recognize that 
there have been successes, such as Ft. Riley, Kansas, where VA and Army 
leadership took steps to avoid such problems as those experienced at 
Ft. Carson. Through these efforts, and our analysis of lessons learned, 
we have developed Initial Operating Capability (IOC) readiness criteria 
that stress quality over expedience to ensure that future sites are 
operationally ready for IDES. For a site to be deemed ready it must: 
(1) be able to provide exam coverage through either the Veterans Health 
Administration, DOD, or contracted services; (2) have sufficient space 
and equipment for DOD and VA personnel; (3) meet VA information 
technology requirements; and (4) have local staff who have completed 
IDES training. If any of these criteria is not met, then IDES cannot 
operate at that proposed site.
    In developing the plan for expansion, we will launch new sites in 
four stages over the course of fiscal year 2011. This will be done in 
quarterly increments between October 2010 and October 2011. Stage I of 
this expansion includes 28 locations on the West Coast and in the 
Southeast United States. Of the 28 locations, 16 will initially use 
contracted exam providers, and the remainder will provide exams in 
conjunction with a VA medical facility. Let me assure you that as we 
transition from the DES Pilot to IDES, we are jointly addressing the 
challenges I have highlighted and have taken active, concrete steps to 
ensure that we have the best, most effective program possible.
    On September 27-30, 2010, VA and DOD hosted a joint Training/
Planning conference that set the stage for the roll-out of the next 28 
sites. The conference resulted in improved communications between VA 
and DOD at each site, individual site assessment analyses and 
evaluations, and development of joint local plans to meet IOC 
requirements. This conference will be followed by similar events over 
the next few months as we prepare for the remaining stages of IDES 
implementation. In fact, VA and DOD began a conference on November 16, 
2010, which is wrapping up its work today.
    As we move forward, we are mindful of the concerns and 
recommendations of the Government Accountability Office (GAO) in its 
recent draft report currently entitled ``Military and Veterans 
Disability System: Pilot has Achieved Some Goals but Further Planning 
and Monitoring Needed.'' VA is currently drafting responses to the GAO 
recommendations.
    VA and DOD have jointly worked on improving and expanding the DES 
pilot so that Servicemembers can benefit from a uniform and integrated 
program. Secretary Shinseki and Secretary Gates continue to provide 
leadership, commitment, and support to ensure a successful transition 
from the legacy DES process to the IDES without compromising quality 
for expediency. In fact, on a recent visit to Ft. Drum, Secretary 
Shinseki held a roundtable with Servicemembers and received feedback on 
IDES. We are incorporating his findings into IDES.
    While we are pleased with the joint efforts and progress made, 
there is much more to do. VA and DOD are committed to providing more 
support for our Nation's wounded, ill, and injured warriors and 
Veterans through an improved IDES. As such, we believe that continued 
partnership with DOD is critical and no less than our Servicemembers 
and Veterans deserve.

    Thank you again for your support to our wounded, ill, and injured 
Servicemembers, Veterans, and their families. Mr. Chairman, this 
concludes my testimony. I will be happy to respond to any questions 
that you or other Members may have.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
John Medve, Executive Director of VA/DOD Collaboration Service, Office 
      of Policy and Planning, U.S. Department of Veterans Affairs
    Question 1. Please provide an organizational chart for the 
management of IDES within VA.
    Response. IDES VA Operational Model and a copy of the Deputy 
Secretary's memo appointing Office of Policy and Planning as the lead 
office are attached.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 2. What are the anticipated challenges foreseen at each 
site scheduled to roll out by December 31, 2010?
    Response. Of the 28 sites scheduled to achieve Initial Operating 
Capability (IOC) by December 31, 2010, all sites have achieved IOC. 
Prior to achieving IOC, some sites encountered minor challenges such as 
obtaining approval to access VA systems over DOD network, finalizing 
Memorandum of Agreements (MoA), facilities, resourcing, and 
transportation requirements.

    Question 3. For each site scheduled to roll out by December 31, 
2010, please provide information on whether VA or a contractor will 
perform medical examinations at that particular location. If there is a 
contractor providing examination support at an individual location, 
please provide the name of the contractor and the number of 
examinations anticipated in 2011 for the locations.
    Response. The following chart reflects the sites scheduled to roll 
out during the first quarter of fiscal year 2011, examination provider, 
and anticipated annual caseload. Examinations performed by VHA 
Providers are performed internally. Those performed by QTC contractor 
providers are under an external contract.


------------------------------------------------------------------------
     Military Treatment  Facility/
             Installation                Exam Provider   Annual Caseload
------------------------------------------------------------------------
Beale Air Force Base (AFB)............              QTC and VHA      80
Charleston AFB........................              QTC              27
Edwards AFB...........................              QTC              51
Eielson AFB...........................             VHA               22
Fairchild AFB.........................              QTC              89
Hickam AFB............................              QTC             230
Langley AFB...........................             VHA              300
Los Angeles AFB.......................             VHA               12
Maxwell AFB...........................             VHA               43
McChord AFB...........................              QTC              63
Moody AFB.............................             VHA               68
Mountain Home AFB.....................             VHA              137
Patrick AFB...........................             VHA               98
Pope AFB..............................             VHA               22
Robins AFB............................              QTC             160
Seymour Johnson AFB...................              QTC             163
Shaw AFB..............................             VHA              219
Vandenberg AFB........................              QTC              58
Tripler AMC...........................              QTC             389
29 Palms Marine Hospital..............              QTC and VHA     164
Beaufort Naval Hospital (NH)..........              QTC             171
Charleston NH.........................              QTC              63
Cherry Point NH.......................              QTC             131
Jacksonville NH.......................              QTC             333
Lemoore NH............................              QTC              16
Oak Harbor NH.........................              QTC              59
Pearl Harbor NH.......................              QTC             166
Quantico NH...........................             VHA               78
------------------------------------------------------------------------


    Question 4. What are the training requirements for the launch of 
any new IDES site? What is the Agency's plan to conduct ongoing 
training for staff involved with IDES?
    Response. All personnel are required to attend the IDES Planning 
Conference, and receive Veterans Tracking Application (VTA) and IDES 
overview training from a VA and DOD training team. The team travels to 
Army and Navy sites to conduct on-site training for VA and DOD 
stakeholders. The Air Force conducts a centralized training course 
annually with VA and DOD trainers participating.
    Prior to launching a new IDES site, local representatives from 
military treatment facilities, VHA, and VBA attend a joint planning 
conference where they are trained on the IDES process. Before sites 
begin the integrated process, VA provides onsite training to Military 
Service Coordinators (MSCs) with respect to the IDES process and 
tracking application, the VTA. Additionally, new MSCs participate in 
centralized MSC training that includes IDES-specific training. The 
training curriculum is available on the Compensation and Pension (C&P) 
Service Training Web site, and questions concerning MSC training are 
answered regularly through the C&P Training mailbox.
    In fiscal year 2012, VBA will begin visiting IDES sites as part of 
its routine site visit rotation to its 57 regional offices, where 
onsite feedback and training are provided.

    Question 5. Please describe the overall staffing requirements for 
the adjudication of IDES claims. When will Providence begin processing 
IDES claims? Will additional staff need to be hired in Providence to 
process these claims?
    Response. The projected annual caseload for IDES is 27,000 claims. 
The Providence Regional Office will process 14,000 claims and the 
Seattle Regional Office will process 13,000 claims once full expansion 
is accomplished.
    The Providence Regional Office began processing paperless claims 
for the National Capital Region Paperless IDES Pilot in October 2010. 
Providence has hired 50 FTE to support IDES claims processing. As this 
staff reaches journey-level performance, it is anticipated they can 
support full expansion processing requirements. Seattle has 38 FTE 
dedicated for this special mission. We will continue to compare and 
monitor projected caseload to actual caseload to determine whether 
additional staff will be required in the future.

    Question 6. During the IDES hearing, December 15, 2010, was 
mentioned as the deadline for the overseas IDES roll out plan. Please 
provide the overseas IDES roll out plan.
    Response. VA defers to DOD.

    Question 7. For each site scheduled to roll out by December 31, 
2010, please provide information for how each site is being funded--for 
both the current and next fiscal year.
    Response. VHA requested, obtained and distributed funding to sites 
implementing IDES during FY 2011. IDES supplemental funding allocations 
for FY 2011 were based on projected Medical Evaluation Board (MEB) 
workload data provided to VHA by DOD. The Integrated Disability 
Evaluation System (IDES) has budgeted $18M for FY 2011 and $18M for FY 
2012.
    This distribution of funding has not yet occurred and will be based 
on a comprehensive evaluation of IDES workload anticipated by the 
facilities. Specific determinants to be used in this process will 
include: review of FY 2011 completed IDES workload, forecasted MEB 
workload projections to be provided by the DOD and VISN/VAMCs 
Director's assessments and requests for funding. Funding provided was 
distributed to cover Services and Facilities Costs. This supplemental 
funding effort was primarily designed to provide support for the 
conduct of IDES examinations requests without sacrificing performance 
of C&P examinations. VA facilities are also eligible for reimbursement 
by DOD when performing examinations for Servicemembers for referred 
conditions.
    VBA provides Military Service Coordinator (MSC) support for each 
IDES site. Generally, DOD provides the MSC(s) with office space and 
access to their equipment such as facsimile and copier machines. Costs 
associated with medical examinations are shared by VA and DOD, whereby 
DOD bears the costs associated with conditions that are potentially 
unfitting for further military service while VA bears the costs of 
other conditions claimed as part of the VA claim for compensation.

    Question 8. What specific efforts are underway to improve the 
interoperability of VistA and AHLTA to support the IDES process?
    Response. Advancements in the area of the Electronic Health Record, 
such as Single Sign On, laboratory and radiology portability and the 
joint registration capability continue to highlight the progress made 
toward transactional interoperability between AHLTA and VistA. These 
continued successes, will certainly be advantageous to the IDES process 
as it continues to evolve.

    Question 9. The draft GAO report on IDES indicated that case 
management software was in development. What projects toward this end 
are underway and what are their time lines for delivery? How will costs 
be allocated between VA and DOD?
    Response. VA defers to DOD. We believe the question refers to the 
following language from the draft GAO report: ``DOD officials also said 
that they are developing two new IT solutions. According to officials, 
one system currently being tested would help military treatment 
facilities better manage their cases. Another IT solution, still at a 
preliminary stage of development, would integrate the Veterans Tracking 
Application with the services' case tracking systems so as to reduce 
multiple data entry.''

    Question 10. Please provide the cost--for both the current and next 
fiscal year--of disability examination contracts to support IDES. 
Please provide the costs to VBA and VHA separately.
    Response. The VHA Disability Evaluation Management (DEM) 
Performance Work Statement was posted in the Federal Business 
Opportunities Web site (FedBizOpps.gov) on 22 November 2010. This 
contract remains in the acquisition source selection process and has 
yet to be awarded. Once awarded, this contract will be managed by VHA.
    Estimated costs for VBA are $13 million in fiscal year 2011 and $20 
million in fiscal year 2012. If additional IDES sites are added to the 
VBAu, the cost will increase.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
John Medve, Executive Director of VA/DOD Collaboration Service, Office 
      of Policy and Planning, U.S. Department of Veterans Affairs
    Question 1. According to testimony provided by the Government 
Accountability Office (GAO), some officials have said that 
servicemembers going through the Disability Evaluation System Pilot 
(DES Pilot) or Integrated Disability Evaluation System (IDES) are not 
given meaningful work by their units and, if they are idle while going 
through the process, they might be more likely to engage in behavior 
that could lead to a discharge due to misconduct.
    A. As requested at the hearing, please identify how many of the 
approximately 600 servicemembers who have been ``removed'' from the 
IDES process have been discharged from the military due to misconduct.
    B. Of the remaining servicemembers who have been removed from the 
IDES process, what were the reasons for their removal?
    C. As requested at the hearing, please explain what steps, if any, 
the Department of Defense takes to monitor whether individuals in the 
IDES process are given meaningful work by their units.
    D. As requested at the hearing, please explain whether IDES sites 
are asked to provide a plan for ensuring that servicemembers in the 
process will be given meaningful work.
    E. As requested at the hearing, please explain whether any survey 
questions address the extent to which idleness is seen as a problem 
during the IDES process and provide any relevant survey information or 
data.
    Response. VA defers to DOD.

    Question 2. The Department of Defense set a goal of having no more 
than 20 servicemembers for each Physical Evaluation Board Liaison 
Officer (PEBLO). But, as of October 2010, there were a number of DES 
Pilot sites, including Fort Bragg and Camp Lejeune in North Carolina, 
that had at least 85 servicemembers for each of those case managers.
    A. As requested at the hearing, please describe what factors have 
led to these heavy caseloads for some PEBLOs.
    B. What impact do these high caseloads have on the timeliness of 
the IDES process or on servicemembers' satisfaction with the process?
    C. As requested at the hearing, please provide a timeline for when 
the sites in North Carolina will have enough staff to bring those sites 
in line with the staff-to-servicemembers goal.
    D. Nation-wide, what is the timeline for bringing PEBLO caseloads 
in line with the goal?
    E. As requested at the hearing, please explain whether a ratio of 
20 servicemembers per PEBLO is the proper staffing goal.
    F. In total, how many additional PEBLOs would be needed to roll the 
IDES process out worldwide with a 1 to 20 ratio?
    G. Do you foresee problems being able to hire or maintain 
sufficient PEBLOs at the additional sites you plan to convert to the 
IDES process?
    Response. VA defers to DOD.

    Question 3. In response to a customer satisfaction survey, one 
servicemember going through the DES Pilot noted that he ``went thru 3 
PEBLOs and they changed without me being notified.''
    A. What was the turnover rate among PEBLOs at the DES Pilot sites?
    B. What process should be followed when a PEBLO leaves an IDES site 
or is reassigned? Is there a ``warm hand-off'' to the incoming case 
manager?
    Response. VA defers to DOD.

    Question 4. As of November 7, 2010, over 15,600 servicemembers had 
entered the IDES and 11,295 were still enrolled in that process.

    Question 4A. Please provide a list of how long, on average, 
servicemembers have been pending in the process at each location that 
participated in the DES Pilot.
    Response. DOD and VA have established a joint goal that 50 percent 
of active component Servicemembers will complete the IDES process 
within 295 days in fiscal year 2011. The development of more aggressive 
processing goals is under senior leadership review.
    Attached is a copy of December 26, 2010 monthly IDES report by 
phases and components (AC/RC).
                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 4B. In total, how many of the approximately 11,295 
enrolled individuals have been pending in the IDES process for longer 
than 295 days, the goal for completing the process?
    Response. As of February 3, 2011, 3,895 Servicemembers were 
enrolled in IDES for longer than 295 days.

    Question 4C. How many individuals at Fort Bragg or Camp Lejeune 
have been pending in the IDES process for longer than 295 days?
    Response. As of February 3, 2011, 668 Servicemembers at Camp 
Lejeune and 46 Servicemembers at Fort Bragg have been enrolled in IDES 
for longer than 295 days.

    Question 4D. In total, how many of the approximately 11,295 
enrolled individuals have been pending in the IDES process for longer 
than 540 days?
    Response. As of February 3, 2011, 878 Servicemembers have been 
enrolled in IDES longer than 540 days. This number includes those 
pending longer than 295 days in responses 4B and 4C above.

    Question 4E. What steps do your agencies currently take to flag and 
resolve long-pending cases?
    Response. Cases are flagged and an Overarching Integrated Product 
Team (OIPT) started reviewing performance metrics by site on 
February 9, 2011. Monthly progress reports are posted on the Veterans 
Tracking Application (VTA) homepage and are available to all users. The 
reports highlight older cases and cases pending at each stage for 
longer than standard times.
    Each case is unique and requires joint efforts from central office 
and local level. Central office establishes assignments and 
periodically conducts after action reviews with staff to identify 
systemic issues that may require resource, policy, or procedural 
changes. At the local level, Military Service Coordinators (MSC) work 
with their military counterparts to resolve processing delays. For 
example, case-specific delays are often due to scheduling conflicts for 
illness, surgery, or family emergencies. The Physical Evaluation Boards 
and rating sites conduct weekly reviews to identify the case status and 
develop joint solutions for delays.

    Question 4F. If this process is expanded globally, what additional 
steps would be taken to monitor long-pending cases?
    Response. VA defers to DOD.

    Question 5. During the DES Pilot, customer satisfaction surveys 
have been taken at various stages throughout the process.
    A. Do your agencies use those surveys to identify areas of the 
process or specific facilities that might need improvements? If so, 
please provide examples.
    B. Are the results of those surveys provided to each military 
installation using the IDES process? If so, how frequently is that 
information provided and in what format?
    C. Is any follow-up done on specific complaints listed on those 
surveys?
    Response. VA defers to DOD.

    Question 6. In expanding the IDES worldwide, VA case managers are 
expected to provide services using only video-conferencing or 
teleconferencing at some sites.

    Question 6A. If the IDES is expanded worldwide, which specific 
sites would have only remote services from VA case managers?
    Response. IDES expansion to overseas locations is in the planning 
phase. VA understands that DOD plans to transfer Servicemembers 
referred into the IDES to a location within the continental United 
States. As such, MSCs would be available to all Servicemembers enrolled 
in IDES. Should Servicemembers remain overseas, VA expects to use video 
conferencing for case management.
    Medical Evaluation Boards are currently being conducted by the 
military services at the following overseas sites.


-----------------------------------------------------------------------
      Military Treatment  Facility/Installation          State/Country
------------------------------------------------------------------------
Andersen AFB.........................................              Guam
Aviano AFB...........................................             Italy
Incirlik AFB.........................................            Turkey
Kadena AFB...........................................             Japan
Kusan AFB............................................             Korea
Lajes AFB............................................          Portugal
Misawa AFB...........................................             Japan
Osan AFB.............................................             Korea
RAF Lakenheath.......................................                UK
Ramstein AFB.........................................           Germany
Spangdahlem AFB......................................           Germany
Yokota AFB...........................................             Japan
Camp Zama............................................             Japan
Ft. Buchanan.........................................       Puerto Rico
Heidelberg MEDDAC....................................           Germany
Landstuhl AMC........................................           Germany
Vincenza.............................................             Italy
Guam NH..............................................              Guam
Guantanamo NH........................................                  Cuba
Naples NH............................................             Italy
Okinawa NH...........................................             Japan
Rota NH..............................................             Spain
Sigonella NH.........................................             Italy
Yokosuka NH..........................................             Japan
------------------------------------------------------------------------


    Question 6B. What impact would it have on the level of service 
provided to servicemembers if case managers are not physically on site?
    Response. Working closely with PEBLOS, VA's MSCs will be able to 
meet the needs of Servicemembers using video conferencing, electronic 
mail, telephone, and facsimile.

    Question 6C. Would co-locating PEBLOs and VA case managers at the 
IDES sites be preferable?
    Response. Efficiencies would be gained by co-locating PEBLOs and VA 
Case Managers. The biggest advantage would be the improvement in 
communication between PEBLOs, Case Managers, and Servicemembers. Co-
locating would also improve the movement of documentation between the 
Departments. VA is committed to providing the highest quality of 
services, regardless of how services are delivered.

    Question 7. In the Senior Oversight Committee's August 2010 report 
on the DES Pilot, officials from both agencies highlight that the DES 
Pilot ``provides consistent, equitable outcomes.''

    Question 7A. What steps have your agencies taken to gauge whether 
the ratings provided through this process are consistent?
    Response. In the legacy DES, some stakeholders believed outcomes 
were inconsistent across military services as well as between military 
services and VA. Providing a single disability examination and a single 
preliminary rating evaluation ensures a consistent rating by both 
departments and a more transparent process to the Servicemember. VA 
uses the results of DOD's satisfaction surveys of Servicemembers to 
gauge their perceptions of the fairness and consistency of the DOD 
disability evaluation system.

    Question 7B. Please provide a summary of any data or other 
information your agencies have collected regarding the issue of 
consistency.
    Response. IDES is inherently more consistent as it provides a 
single examination and a single preliminary rating, replacing 
duplicative examinations and ratings by each department. DOD provides 
periodic analyses of its satisfaction surveys. Pilot participant 
respondents reported that the IDES MEB and PEB processes were 
significantly fairer than did legacy DES participants. Soldiers, 
Sailors, and Marines in the IDES reported that IDES MEB and PEB 
processes were significantly fairer than their legacy DES counterparts 
reported. However, Airmen reported no difference in the fairness of MEB 
and PEB IDES and legacy DES processes.

    Question 8. Your agencies are currently planning to implement the 
IDES at 140 locations worldwide.

    Question 8A. How many of those sites generally would have less than 
24 individuals per year entering the disability evaluation system?
    Response. VA defers to DOD.

    Question 8B. Please describe the plans for providing medical 
examinations and VA case management at each of those sites?
    Response. The decision for how medical examinations are provided is 
determined locally by the site leadership. This decision is normally 
made 60 days prior to the Initial Operating Capability date. The 
examination provider is determined on an individual site basis based on 
local resources and site location. If local resources are available, 
VHA examiners provide medical examinations for IDES. Where a VHA 
facility or examiners are not available, contract examiners are 
utilized.
    IDES sites are staffed with MSCs based on anticipated annual 
caseload. Sites that do not warrant a full time case manager have MSCs 
assigned on a temporary basis.

    Question 9. For purposes of the DES Pilot, rating decisions were 
provided by a limited number of VA regional offices.

    Question 9A. How many rating decisions have each of those offices 
provided to date for purposes of the DES Pilot or IDES?
    Response. Since the inception of the DES Pilot, rating decisions 
have been provided at the following VA regional offices: St. 
Petersburg, Baltimore, Seattle, and Providence. St. Petersburg provided 
rating decisions until March 2009, when Baltimore and Seattle assumed 
responsibility for providing rating decisions. Providence began 
assisting Baltimore in providing rating decisions in October 2010.
    As of February 3, 2011, the Baltimore Regional Office completed 
4,428 preliminary IDES ratings and 2,027 final ratings, while the 
Seattle Regional Office completed 3,397 preliminary IDES ratings and 
1,915 final ratings. The data cited for the Baltimore Regional Office 
includes ratings completed by the St. Petersburg Regional Office early 
in the Pilot phase and ratings completed by the Providence Regional 
Office since October 2010.

    Question 9B. How long, on average, does it take each office to 
provide a rating decision for purposes of the IDES or DES Pilot?
    Response. As of February 3, 2011, the Baltimore Regional Office's 
average decision time was 35 days for preliminary IDES ratings and 38 
days for final ratings, while the Seattle Regional Office's average 
decision time was 15 days for preliminary IDES ratings and 29 days for 
final ratings. Due to the heavy IDES workload in Baltimore, the 
Providence RO is assisting Baltimore with preliminary ratings. It is 
expected that this assistance will improve timeliness.

    Question 9C. To the extent the rating decisions are not being 
provided within the target timeframe, what factors lead to delays?
    Response. The primary factors that lead to delays are obtaining 
complete medical records from National Guard/Reservists and timely 
receipt of separation documents (DD Form 214).

    Question 10. At the hearing, we discussed a screening process being 
used at Fort Riley to prevent cases from being referred to the IDES 
prematurely.
    A. At Fort Riley, how many individuals have gone through that 
screening process and how many of those individuals were referred to 
the IDES?
    B. How long, on average, does it take to complete this screening 
phase at Fort Riley?
    C. If a servicemember goes through this type of screening process 
and is ultimately referred to the IDES, is the time spent in the 
screening process counted in determining how long in total the IDES 
process takes?
    Response. VA defers to DOD.

    Question 11. GAO pointed out in its testimony that some sites 
experienced shortages of examiners needed to provide the comprehensive 
set of medical examinations used for the IDES process.

    Question 11A. Of the approximately 11,295 servicemembers currently 
enrolled in the IDES process, how many are awaiting medical 
examinations?
    Response. Data is not available on the precise number of 
Servicemembers waiting for examinations. However, data does show that, 
as of February 3, 2011, 2,314 Servicemembers are in the examination 
stage of IDES. This stage begins when the Military Service Coordinator 
(MSC) enters the request for examination into electronic systems. This 
stage ends when the examination is completed and the provider releases 
the examination results electronically to the MSC. An additional 48 
Servicemembers were interviewed by MSCs and did not have examination 
requests entered into electronic systems. The data represents a snap 
shot in time. There will always be a slight lag time between the 
Servicemember interview, examination request, and VTA data entry.

    Question 11B. In total, how many medical examination requests are 
currently pending?
    Response. As of February 3, 2011, 2,314 cases were in the 
examination stage of IDES.

    Question 11C. How long on average is it currently taking for a 
servicemember to complete the necessary medical examinations?
    Response. To date, the examination stage of IDES is taking an 
average of 61 days to complete. This measures the time from when the 
MSC enters the examination request to the time when the examination 
results are released by the provider. No data is being recorded to 
specifically measure the time from examination request to the date the 
Servicemember is actually examined.

    Question 12. As requested at the hearing, before finalizing plans 
to implement the IDES at sites overseas, please provide the Committee 
with a comprehensive proposed plan for handling that expansion.
    Response. VA defers to DOD.
                                 ______
                                 
  Response to Post-Hearing Questions Submitted by Hon. Mark Begich to 
John Medve, Executive Director of VA/DOD Collaboration Service, Office 
      of Policy and Planning, U.S. Department of Veterans Affairs
    Question 1. Mr. Campbell or Mr. Medve, I understand one of the 
goals of the Integrated Disability Evaluation System was to expedite 
the VA benefits for the Servicemembers. Have you received feedback from 
the Servicemembers (the patient) on how this program is working? Do you 
have a good measure of what the patient perceives to be success? Can 
you explain why the Air Force members are less satisfied?
    Response. VBA defers to DOD. However, the language below can be 
incorporated into DOD's response: VA has developed a customer 
satisfaction survey for Veterans who complete the IDES process. Plans 
to implement the survey are underway.

    Question 2. Mr. Campbell and Mr. Medve, can you talk briefly about 
VA staffing requirements to support the Integrated Disability 
Evaluation System? Do you believe the hiring and training of new staff 
will be able to keep up with the worldwide expansion plan?
    Response. At this time, VA believes we will be able keep up with 
the hiring and training requirements to support worldwide IDES 
expansion. VA has explored several options to address increased 
staffing requirements to support the IDES expansion. For example, in 
the event of a surge, VA will temporarily assign Veteran Service 
Representatives from the local Regional Office to serve as Military 
Service Coordinators (MSCs) for the impacted Military Treatment 
Facility (MTF).
    VBA currently has 93 Military Services Coordinators (MSC) that 
participate in a national curriculum for technical training related to 
claims development. They must complete developmental training specific 
to the IDES process to enhance their skill sets.
    During the last quarter of 2010, two developmental training 
sessions were conducted for approximately 90 participants. A third 
training session will be held in March for the remainder of new hires. 
We anticipate the need to hire an additional 15-25 FTE, and all 
training will be completed prior to full expansion.

    Question 3. In your testimony, you mentioned how in Stage I of the 
expansion 16 of the 28 locations will initially use contracted exam 
providers and the remainder will provide exams in conjunction with a VA 
medical facility. Can you briefly explain how these contracted 
providers are certified?
    Response. Certification is obtained after completing online 
training provided by VHA. The contractor must also provide an 
orientation and instructions to examiners based on the requirements 
provided in the C&P examination worksheets. The contractor must provide 
training to the examiners to:

    <bullet> Explain the differences between VA disability examination 
protocol versus the examination protocol for treatment purposes;
    <bullet> Ensure that examiners have appropriate attitudes toward 
Servicemembers and their unique circumstances;
    <bullet> Ensure that examiners understand the VA's use of the term 
``at least as likely as not'' in the formation of any requested medical 
opinions;
    <bullet> Explain the concept of presumptive diagnoses in view of 
unique circumstances of military service;
    <bullet> Ensure that examiners understand how to assess and 
document pain in accordance with VA regulations;
    <bullet> Follow state laws where medical or psychiatric emergencies 
arise;
    <bullet> Provide appropriate notification to follow-up on abnormal 
findings;
    <bullet> Obtain CPEP certification (available from VA) as 
appropriate; and
    <bullet> Maintain and assure privacy protection under Federal and 
state laws, including but not limited to the Privacy Act and HIPAA.

    Question 4. Mr. Campbell or Mr. Medve, in your opinion, do you feel 
the worldwide expansion plan is too aggressive or just right when 
taking technology and the appropriate level of staffing into 
consideration?
    Response. VA and DOD believe the IDES worldwide expansion is 
appropriate. Leaders at each site have the ability to request an 
adjustment to their Initial Operating Capability date if the site is 
not ready. Additionally, VA and DOD require local site leaders to 
jointly certify they are ready before launching IDES.

    Chairman Akaka. Thank you very much, Mr. Medve.
    Mr. Bertoni, in your opinion, are the Departments 
adequately addressing all of the major problems that were 
identified during the pilot? I ask this because I am concerned 
that some issues may not be fully addressed before it is rolled 
out to the rest of the military.
    Mr. Bertoni. As noted in our statement, I think they have 
made progress in several areas, especially in regard to getting 
out in front of the staffing issues. That is a big one. I 
cannot stress that enough. There are a lot of moving parts, a 
lot of specialized services and skills they need, and there is 
at least an acknowledgment that the staffing portion or 
component of this is critical to success; and we would agree 
with that. How are they going to get there? That is the 
question from us. You can reallocate, you can hire, you can 
bring in additional contractors, but we would really need to 
see sort of a service delivery plan or an operations plan going 
forward to discern how that is going to happen.
    I appreciate the comment that you all may be looking back 
at the original 27 sites to sort of look at those issues 
because I think there are still lingering issues out there in 
regard to staffing that are very important.
    Beyond that, certainly the issue of monitoring. I think 
having good MI data at the local level as to what is happening 
with these particular sites, if things start to go awry--
staffing shifts, attrition, problems with diagnoses, problems 
with exam summaries--you can know this sooner rather than 
later, get out in front of that problem and come into play with 
remedial training, guidance, et cetera to sort of prevent some 
of these issues from getting worse.
    So there is an acknowledgement. There appears to be a plan. 
We have not seen that operational plan, but at least there is 
an acknowledgement that there are some issues to work on.
    Chairman Akaka. Thank you.
    Mr. Campbell and Mr. Medve, are you both able to track 
individual sites to determine if there are problems with 
staffing and insufficient medical exams? Mr. Campbell?
    Mr. Campbell. Yes, sir. I would like to make the point that 
no site will go into IOC unless it passes a series of strict 
tests. We have checklists. We are looking at these sites 
weekly, those that are in preparation for the expansion. We are 
looking at them weekly to make sure that they pass these tests. 
And once the sites go live, we will be monitoring them, as 
well. So I believe that it is probably fair to say that no 
servicemember is going to be endangered. We are not racing to 
get the sites complete so we can adhere to some timeline. This 
is really a criterion-driven basis and we feel comfortable that 
we have sufficient safeguards built in that the sites will not 
go live until they are ready.
    Chairman Akaka. Mr. Medve?
    Mr. Medve. Senator, thank you for the question. I would 
like to echo what Mr. Campbell said. I mean, we have instituted 
as a base the lessons learned from the pilot sites, a 
certification process that now has a much more robust 
understanding of the requirement that will inform staffing 
decisions. During the pilot site, I think we used about a 
year's worth of data, and it turned out not to include things 
like how many deployment cycles sites had gone through, which 
had an impact on the number of cases and the type of cases that 
sites went in, which impacted the type of examinations that 
need to be done. So we now use a multi-year view of that. 
Obviously, our understanding as we have gone through has 
increased and we are developing robust staffing plans for the 
oncoming sites.
    And again, just to reiterate what Mr. Campbell said, we 
made it clear to all sites that unless there is the capability 
and capacity to move forward, they are not to move forward with 
this.
    Chairman Akaka. Thank you.
    Mr. Campbell, I am concerned that VA may bear a 
disproportionate burden in administering this program. Can you 
respond with your thoughts on that?
    Mr. Campbell. Yes, sir. I would be happy to. We have 
signed--the DOD and the VA have signed a Memorandum of 
Understanding, an agreement to share these costs equitably. The 
process is one where the costs will be allocated as they become 
live costs, then at the end of this period we will look at 
whether we owe the VA money or they owe us money.
    Chairman Akaka. Senator Burr, your questions.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Bertoni, VA and DOD have estimated that the IDES system 
is faster than the old legacy disability process. Now, their 
estimate is that the old legacy process was 540 days, but you 
noted, ``the extent to which the IDES is an improvement over 
the legacy system cannot be known because of the limitations in 
the legacy data,'' and that the 540-day estimate, ``is based on 
a small, non-representative sample of cases.''
    First of all, can you explain for the record how many cases 
were used to come up with the 540-day estimate?
    Mr. Bertoni. I believe that originated with the original 
tabletop exercise way back in 2007, where I think there were 70 
cases across all services where they went in and looked at the 
average processing time for those cases and came up with a 
number for DOD's side of the shop, and that was about 300 days. 
Then they extrapolate to the VA side, with an average of--it 
can take up to 200 days to process a VA claim--and tacked that 
onto the overall total. So they came up with the 540-day 
average.
    We had some concern with that. It is not as rigorous as we 
would like. We tried to reconstruct it on our own and we found 
very quickly that it was very--it was an apples to oranges 
comparison by trying to bring in the various services plus the 
Army. It really was not possible in terms of the quality and 
integrity of the data.
    We did do our own analysis of the Army data, which we felt 
was sufficient to do this type of analysis, with Army 
representing 60 percent of IDES cases, it is pretty substantial 
if we could verify that. We did our analysis and were able to 
determine that it came out to about 369 days to complete the 
IDES portion of the process. Recognizing that it would be 
reasonable to assume that it could possibly take up to 200 days 
to complete the VA rating side. So, a fairly reasonable 
estimate though not entirely rigorous.
    Senator Burr. Mr. Campbell, according to GAO's testimony, 
some officials have said that the servicemembers going through 
the IDES are not given meaningful work by their units and they 
are idle while they are going through the process. They might 
be more likely to engage in behavior that could lead to 
discharge due to misconduct.
    Of the 600 servicemembers that have been removed from the 
IDES process, how many have been discharged due to misconduct?
    Mr. Campbell. Senator, I do not know.
    Senator Burr. Is that not something we track?
    Mr. Campbell. I will have to take that question for the 
record, Senator.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
  John R. Campbell, Deputy Under Secretary, Office of Wounded Warrior 
         Care and Transition Policy, U.S. Department of Defense
    Response. As of December 5, 2010, the current tracking indicates 
that 112 Service members (2.8% of those completing the IDES) were 
involuntarily separated for non-disability reasons (Administrative 
Discharge/Court Marshal).

    Senator Burr. I would appreciate it. Let me also ask you, 
do we monitor whether they are given meaningful work, 
meaningful assignments?
    Mr. Campbell. My understanding is that the military 
departments, within their programs of Warrior Transition Units 
or the Wounded Warrior Brigades, have programs. I have been in 
this job for 3 months. I visited a number of these 
organizations. My view is that they appear to be giving these 
young men and women sufficient work and keep them active, very 
busy. I was at Camp Lejeune. I saw the facility there and the 
program which I thought was just fabulous.
    Senator Burr. Do we have a written integrated plan for 
these individuals?
    Mr. Campbell. I will have to get back to you, Senator. I do 
not know.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
  John R. Campbell, Deputy Under Secretary, Office of Wounded Warrior 
         Care and Transition Policy, U.S. Department of Defense
    Response. At this time, DOD does not have an integrated written 
plan for these individuals. However, the Department of Defense (DOD) 
intends to publish a new operations guide for IDES sites. In the guide, 
DOD will clarify that commanders at all levels are required to ensure 
IDES referred Servicemembers are gainfully employed during the duration 
of the IDES process. Alternatively, Commanders may indicate that a 
Recovery Care Plan has been instituted in lieu of full time employment 
for such Servicemembers.

    Senator Burr. Let me ask you, do we survey any of the 
individuals to find out if, in fact, idleness is a concern that 
they have?
    Mr. Campbell. I know we have surveys and we track those. We 
monitor those.
    Senator Burr. Let me ask you to provide as much information 
from those surveys as it relates----
    Mr. Campbell. Yes, sir.
    Senator Burr [continuing]. To the views that they have.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
  John R. Campbell, Deputy Under Secretary, Office of Wounded Warrior 
         Care and Transition Policy, U.S. Department of Defense
    Response. In an ongoing effort beginning in January 2008, the 
Defense Manpower Data Center (DMDC) administers voluntary surveys to 
IDES participants at the completion of the three major phases of the 
IDES process: the Medical Evaluation Board (MEB), the Physical 
Evaluation Board (PEB), and the Transition Phase just prior to 
transition to veteran status. Timeliness of the IDES process is 
assessed in each of these surveys by asking Servicemembers the 
following question: ``How would you evaluate the timeliness of the IDES 
process since entering it?'' Based on feedback from over 5,000 IDES 
survey participants across the MEB, PEB, and Transition surveys, the 
average satisfaction score was 3.1 on a Likert scale of 1 (``Very 
Poor'') to 5 (``Very Good''). While this does not specifically address 
``idleness'', Servicemember comments on the survey still indicate a 
need for the IDES to be more efficient. We have embarked on numerous 
continuous improvement efforts to shorten the time a Servicemember 
spends in the total IDES queue. As we work on these efforts, our line 
and warrior transition commanders are encouraged to gainfully employ 
IDES Servicemember while they matriculate through the system.

    Senator Burr. Mr. Bertoni, would you like to comment on 
that at all?
    Mr. Bertoni. I would talk very quickly, first, about those 
who were removed. We get weekly tracking sheets and we look at 
that number very closely each week. If they are in the 
``removed'' category, that can mean a lot of things. It could 
be family hardship, conscientious objection, a number of 
factors that go into that category, including misconduct. You 
cannot tease out that particular issue from the way they are 
capturing data now. We have asked about that and thought about 
sort of digging down deeper, but we could not get to it in 
terms of the scope of our review this go-around.
    As far as idleness, we did see and have heard at various 
locations folks who are in an extended period of evaluation. As 
designed, on average, folks are in this process almost 40 days 
more than the legacy system. So finding constructive things for 
these folks to do rather than to go back to their rooms and 
play video games is certainly something that should be on the 
radar screen going forward.
    Senator Burr. Mr. Chairman, my time has expired, we will 
have a second round, I take for granted----
    Chairman Akaka. Yes.
    Senator Burr [continuing]. So then I am going to give you 
the first question, this simple question, and let you think 
about it between now and then but not answer it now. And it is 
simply this, in this further expansion--the plan is to expand 
overseas--if we have got servicemembers that are in the process 
of evaluation to transition from active duty to non-active duty 
to be integrated into the VA system, why would we keep them 
assigned overseas and not transferred back to the United 
States? Obviously, with the VA system, any services provided 
would be remotely because we do not plan to stand up VA 
facilities outside the country. I will ask you to think about 
that and then expand on it.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Brown of Ohio?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown of Ohio. Thank you very much, Mr. Chairman. 
Thank you for your leadership in spearheading the integration 
of disability evaluations. It is vital to ending this ongoing 
problem that affects so many of our Nation's veterans. Thank 
you to the panel.
    Veterans too often have to navigate a complex Disability 
Evaluation System not once but twice to get the benefits they 
earned. They should not have to do that. If the Disability 
Evaluation System--if it is a question of money, if that is the 
problem, we need to know that and we need to understand that 
better. If it is a question of staff, we need to know that. 
Everyone in this room, certainly, regardless of party, wants 
this program to succeed. That is why we are here today.
    I would like to ask all three panel members a pretty simple 
question that affects my home State. Ohio is consistently, as 
you have heard me say and others say, at the bottom of the 
benefit ratings, and my question is, why is a bum knee in San 
Diego not the same as a bum knee in Cleveland? How are you 
addressing this issue to fix that discrepancy? Let us start 
with Mr. Campbell.
    Mr. Campbell. I am sorry. I did not understand the 
question.
    Senator Brown of Ohio. Well, Ohio is consistently at the 
bottom in these benefit ratings. I guess it is more a VA than a 
DOD problem, so I'll ask one of the other witnesses to start. 
We have asked this question and we have not seen this fixed. We 
are continuing to find this disparity happening too often.
    Mr. Medve. Senator, thanks for the question. I cannot speak 
specifically right now to Ohio, but on principle, there should 
be no difference. I mean, a rating is a rating; and we are 
working diligently to ensure that there is a standardized 
process of how those are evaluated in place.
    Senator Brown of Ohio. Mr. Bertoni, any thoughts?
    Mr. Bertoni. We have done limited reviews here. I guess I 
agree. Like impairments should receive like ratings and VA has 
some things in place from a quality assurance standpoint to 
look at that. I know they are doing what are known as inter-
rater reliability studies, where they take one case, a similar 
case, give it to multiple examiners, and see how they come out 
in terms of the rating. Then they try to sort of delve into 
that to determine causes the discrepancy, and then conduct 
wider training across particular issues, like back pain, knee 
pain, mental impairments--I think those are the three big ones. 
They should be doing that. I cannot speak to the whys in Ohio, 
but I know there are efforts underway at VA to try to get at 
the inconsistency across locations.
    Senator Brown of Ohio. GAO has seen this happening with VA 
for some time. I guess I am still not clear why this persists. 
Mr. Medve or Mr. Bertoni, why does it continue to exist? I 
mean, it does not seem difficult to make this standard 
throughout the VA.
    Mr. Medve. Senator, I will have to take that for the 
record, go back and delve in to get you an answer, to 
understand why there is a difference between what constituents 
in Ohio are getting.
    Senator Brown of Ohio. All right. Thanks, Mr. Chairman.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Sherrod Brown to 
John Medve, Executive Director of VA/DOD Collaboration Service, Office 
      of Policy and Planning, U.S. Department of Veterans Affairs
    Question. Ohio is consistently, as you've heard me say and others 
say, at the bottom of the benefit ratings. My question is, why is a bum 
knee in San Diego not the same as a bum knee in Cleveland? How are you 
addressing this issue to fix that discrepancy?
    Response. Disability benefits are provided to Veterans according to 
the regulatory scheme embodied in 38 Code of Federal Regulations, Part 
4-Schedule for Rating Disabilities (rating schedule). This rating 
schedule provides an organized and coherent system for evaluating 
disabilities and for providing equitable and consistent compensation 
for service-connected injuries and diseases to our Nation's Veterans. 
The rating schedule is the basis for all rating decisions regardless of 
location.
    VA contracted with the Institute for Defense Analyses (IDA) to 
study the variance in average payments among states and determine if a 
significant correlation to one or more variables could be indentified 
that contributes to the variance. IDA found that relative variability 
across states has existed at or near the current level over the past 35 
years. IDA identified the major factors that individually contribute to 
the observed variation in average compensation, including the 
distribution of Veterans with ratings of 100 percent, the types of 
disabilities, county of residence, median family income, percent of the 
population with physical or mental disability, population density, 
representation by power of attorney, and period of service. According 
to IDA, application rates appear to also be a key driver for the 
percent of veterans receiving compensation. Much of the variation 
across states (over 40 percent) is associated with differences in the 
recipient populations. IDA found that the percent of compensation 
recipients in a particular area who are military retirees is also a 
major contributing factor.
    It is important to understand that the average payments being 
compared cover all Veterans currently receiving disability compensation 
benefits, and the VA decisions that awarded these benefits have been 
made over a period of more than fifty years. The average payments for 
all recipients are therefore not necessarily reflective of the 
experience of veterans currently applying for disability compensation 
benefits. In order to assess differences in benefits currently being 
awarded to recently separated veterans, VA looks at average payments to 
veterans who are added to VA's disability compensation rolls during the 
year. It is significant to note that when comparing average payments to 
Veterans newly awarded compensation, the average amount awarded to Ohio 
Veterans in 2010 was 92 percent of the national average ($573.81 per 
month for Ohio vs. $624.69 per month for the Nation) and 40th overall.
    To achieve greater consistency and accuracy in decisionmaking, it 
is critical that employees receive the essential guidance, materials, 
and tools to meet the ever-changing and increasingly complex demands of 
their responsibilities. VBA has established a comprehensive national 
training program that includes pre-requisite, centralized, and home-
station training phases. The integration of a national training program 
has resulted in standardized training modules for all phases of claims 
processing. Additionally, VBA created training modules for recurring 
training for journey-level claim processors. This national training 
program allows VBA to increase both accuracy and production as 
employees continue to increase their individual knowledge and 
proficiency.

    Chairman Akaka. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Campbell, I understand that of the first some 3,700 
servicemembers evaluated in the DES pilot system, nearly 1,000 
of them were returned to active duty and not determined to be 
disabled. That is 26 percent of all the evaluations. That just 
appears to me on the surface to say that we do not have a very 
good early evaluation system before they get to the 
determination system. Am I right or am I wrong?
    Mr. Campbell. I think that percentage is higher than one we 
track, but beyond that the fact is the effort is to try to 
return young men and women who can serve and want to continue 
to serve back to active duty; that is really an objective, an 
important objective. But in terms of the issue of whether it 
takes away from the resources for exams for other veterans, 
other servicemembers, we are monitoring that right now and 
trying to figure out how to best ensure that only those that 
should be examined are examined.
    Senator Isakson. Was Fort Gordon in Augusta, GA, one of the 
test sites? Does anybody know?
    Mr. Medve. I am not sure----
    Senator Isakson. That is the Charlie Norwood VA----
    Mr. Medve. No, sir, I do not think it was.
    Senator Isakson. It was not? I was there with Under 
Secretary Duckworth from the VA just a month or so ago and have 
followed up over the last 3 years on their seamless transition 
for Wounded Warriors and they have focused at Fort Gordon and 
at the Charlie Norwood VA on early identification for soft 
tissue, PTSD, TBI type of injuries, and I would guess, it is 
just a guess, that of those that go for evaluation and then 
subsequently are returned, many of them end up being people who 
suffer from that type of a problem that end up being corrected. 
They have done some wonderful work at the Norwood VA and Fort 
Gordon, with early identification of PTSD and TBI. So I would 
encourage as you expand--I think you all said you were going to 
expand the test sites. Is that right?
    Mr. Campbell. Yes, sir.
    Senator Isakson. I would encourage you, if they want to do 
it, to see if Fort Gordon and the Charlie Norwood VA in 
Augusta, GA, are not a part of that, because General Schoomaker 
started the seamless transition at that facility before he left 
to come to Walter Reed which has been very successful. There is 
a tremendous support center there.
    Just one other question for Mr.--is it Medve?
    Mr. Medve. Yes, Senator.
    Senator Isakson. Is that close enough? I am Isakson and 
that is hard to pronounce.
    Mr. Medve. Sir, I have lived with that through my entire 
life.
    Senator Isakson. So have I. I understand that VA Service 
Coordinators who give services in terms of benefit advice to 
those entering the VA system and the overseas veterans who are 
getting ready to enter the system do that by long-distance 
teleconference. Is that correct?
    Mr. Medve. That is my understanding, Senator.
    Senator Isakson. The thing that worries me about that is 
the effectiveness of a teleconference versus a personal contact 
one-on-one so the veteran can really ask further questions. Do 
you have any input on the success or if there has been a 
``falling through the cracks problem'' because of the use of 
teleconference versus personal interviews?
    Mr. Medve. Sir, I personally do not know. I also know we do 
have essentially circuit riders overseas, as well, that also 
back that up.
    Senator Isakson. Well, I have seen the value of those 
coordinators one-on-one, again, at the Norwood VA in Augusta, 
GA, I think circuit riders are an excellent solution to what 
otherwise could be a problem of a more impersonal evaluation 
being by long-distance videoconference rather than one-on-one.
    Mr. Medve. And Senator, just to follow up, Fort Gordon is 
on the planning for Stage 2, which is January through March of 
next year when it is planned to go into the DES system.
    Senator Isakson. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Isakson.
    Senator Johanns?
    Senator Johanns. Thank you, Mr. Chairman.
    Let me, if I might, ask maybe a couple nuts and bolts sorts 
of questions. How pervasive is the issue of a differing 
diagnosis between VA and DOD? How much are we running into 
that? I am not sure who is equipped to handle that, but jump 
in.
    Mr. Bertoni. I can handle it from the standpoint of our 
audit. We do not know how pervasive it is and we--and VA and 
DOD do not know because they are not specifically tracking this 
at a macro level. We heard it enough, I believe in four of ten 
sites. We did meet with high-level officials in terms of the 
folks who are planning and implementing the pilot. There was an 
acknowledgement that there might be a structural issue here in 
terms of the two entities coming to terms on diagnoses. So it 
is an emerging issue, something that we have identified and we 
think they need to get their hands around. We will likely ask 
them to do that.
    Senator Johanns. So what happens to the servicemember once 
that happens? You have got DOD out here saying X. You have got 
the Veterans Administration saying Y. Are they just caught in 
limbo?
    Mr. Bertoni. The case sits. They have to wait for that to 
be resolved. If the Medical Evaluation Board physician and the 
VA examiner disagree, there is an issue there that has to be 
resolved. That can take time. Down the road, if you get 
discrepancy between the Physical Evaluation Board and the VA 
rating staff, that has to be resolved which takes time. Right 
now, there is no specific DOD-wide guidance as to how that is 
to be resolved.
    Senator Johanns. That seems to be a significant problem to 
me. I do not know if this is 5 percent of the cases or 50 
percent of the cases, and I guess nobody else knows that, 
either, but it seems to me if we do not solve that problem, 
then no matter what we do with systems, you are still going to 
have people out there waiting. And if there is no guidance, how 
does one even know which direction to go to solve the problem?
    Mr. Bertoni. I have been doing this a long time, and the 
issue of developing the medical record is a thorny issue across 
all Federal disability programs. This is just something that 
really could be important--or detrimental to the program, 
depending on how large it is.
    Senator Johanns. OK. Does either one of you want to weigh 
in on that?
    Mr. Medve. Senator, I know it was part of the GAO report. 
As we are finalizing our response to it, we acknowledge the 
issue, and I think what we will put in place as part of our 
answer back to the GAO report will help address that. It really 
comes into play in many cases with issues of mental health and 
PTSD ratings as opposed to what may be on the service side a 
diagnosis of depression or anxiety or something like that, and 
that is where the largest--and those are complex cases. So Mr. 
Bertoni is right, and it is something that we acknowledge and 
we are going to work to fix.
    Senator Johanns. OK.
    Mr. Campbell. Sir----
    Senator Johanns. Go ahead. I am sorry.
    Mr. Campbell. I would like to add that we, as well, concur 
with Mr. Bertoni's recommendation and we are behind the study 
to assess the issue and see what can be done.
    Senator Johanns. This leads me to another question. You 
have these recommendations. You are responding to them. Is 
there coordination in that response?
    Mr. Medve. Yes, sir. When we review the report--because, I 
mean, obviously, I consider Mr. Campbell to be my battle buddy 
in this endeavor, and we at least look at each other's 
responses to make sure that we are both looking at the issues 
in the same way, and we are looking at the solutions in the 
same way.
    Senator Johanns. OK. Let me go to another area. Again, I 
think, Mr. Bertoni, you are probably the guy I call on, and 
this will be a little bit inartful because I am trying to 
figure this out. It seems to me we can spend a lot of time and 
effort on the right system, et cetera, but then it always seems 
that there are locations that do better than others. Do you 
know what I am saying? Did you see that, and walk me through 
your sense of why that happens. Is that management? Tell me 
what you think about that.
    Mr. Bertoni. I think you cannot downplay the importance of 
good management. I have seen across numerous programs folks who 
get it, understand what needs to happen, are good managers, put 
the pieces in play to make things happen. You can do a lot with 
that. There are folks who streamline or redesign processes that 
can lead to efficiencies. At some locations, it just comes down 
to volume. You have low-volume locations. You can work harder 
with a system that is not quite perfect and still get the work 
done. It is only when you start to pour more cases and 
servicemembers into the process that the bottlenecks start to 
reveal themselves.
    So I think one thing is to really look at folks who have 
figured it out in terms of redesigned processes, which I think 
this whole effort, the pilot, is designed to do just that. 
There is an evaluation loop to identify problematic areas and 
the entities that are administering it should be looking to 
best practices, redesigned processes to make it better beyond--
you can invest people and IT systems into this to the n-th 
degree, but it comes down to how you designed it, in many ways, 
and managed it.
    Mr. Medve. Senator, absolutely, leadership is key and 
teamwork is a key in high-performing versus low-performing 
sites. One of the things that we have done is that as each of 
the iterations of the expansions role out, we host a 
conference, and we bring the site teams, both DOD and VA, here. 
As a matter of fact, there is one completing today here at 
Bethesda.
    Part of that conference is we bring both representatives 
who are involved in the Fort Carson rollout and the Fort Riley 
rollout, because Carson represents a site that obviously had 
challenges, and they are working through them. Fort Riley was 
very proactive and did a superb job in organizing themselves. 
So we expose the oncoming teams to both of those sets of 
experiences.
    Additionally, we have brought some Lean Six Sigma 
expertise, especially at Carson. We are sharing those lessons 
with those oncoming sites. I hope very soon to be able to 
deploy process teams to both the oncoming sites and also to the 
ones that are in existence now to do a deep dive into their 
processes for improvement.
    But again, the number 1 lesson is if the team is not fully 
engaged, if the leadership is not engaged, then we are going to 
have challenges. I think it is even more of a challenge with 
some of the smaller sites because the low volume--there may be 
a view that maybe we can just not have to focus so much there; 
but, in fact, that is where we end up having problems, so we 
are putting an effort there, as well.
    Senator Johanns. OK. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Johanns.
    Senator Brown of Massachusetts?

               STATEMENT OF HON. SCOTT P. BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Mr. Chairman.
    It seems like several years now that the DOD and the 
Department of Veterans Affairs are kind of playing a blame game 
when it comes to the DES pilot program. Meanwhile, military 
members are trying to move on with their lives, and frankly, 
from what I have heard, the hurdles seem very high for them. 
They are waiting, hoping that doctors' appointments do not get 
canceled. Months and sometimes years go by.
    As a result of that, I am a little uneasy with the 
declaration made by the DOD that plans to conduct a global 
rollout of this program by the end of next fiscal year is 
something that they are focused on actually doing. It seems 
like a decision of this magnitude, in my view, requires a 
better understanding of the measurable verified factual basis 
upon which the DOD has made the decision to launch a worldwide 
program. Because unless I am wrong, there seems to be a lack of 
personnel, really, and resources to do that.
    So I guess with that being said, my question is, will this 
program require more medical exam doctors and nurses throughout 
the country and across the globe? Mr. Campbell?
    Mr. Campbell. Senator, I think it is better--the medical 
piece of it is probably better answered by Mr. Medve, but I 
think what we would like to say is that nothing will roll out 
unless we are convinced, both VA and DOD, that these sites are 
ready. We are certainly not going to put a site out there that 
will bring into question----
    Senator Brown of Massachusetts. Well, at this point, do you 
have the appropriate amount of medical examination folks to do 
that or not?
    Mr. Medve. Senator, we have had some areas where we have 
had staff shortages. We are addressing those now. We have added 
contract examination capabilities to give us some additional 
bandwidth in that area. So, yes, I am confident that from VA's 
standpoint, we are going to be ready as we roll out each one of 
these sites. And again, just to echo what Mr. Campbell said, it 
is criteria-based. If a site does not have its required 
capability, it is not going live.
    Senator Brown of Massachusetts. Do you envision any--with 
all the private contracted medical examination folks, do you 
think they will readily agree to travel across the globe and to 
every military installation to serve in this capacity? Have you 
noticed any push-back at all?
    Mr. Medve. Senator, I want to be clear. If you are talking 
about the overseas rollout aspect of it, if I am not mistaken, 
I believe there is a plan that is due the 15th of December that 
will specifically address the overseas rollout of this, and so 
I will have to----
    Senator Brown of Massachusetts. OK. How many psychiatrists 
or psychologists does the DOD need right now to accomplish this 
mission? Any thoughts on that? Do you have a number, or do we 
have the amount?
    Mr. Medve. Senator, I do not in terms of what DOD needs for 
that.
    Senator Brown of Massachusetts. OK. Maybe I have to refocus 
my question. But let me just follow up on something that Mr. 
Bertoni said. You mentioned idleness among the servicemembers 
that occurs while they wait. I know there was a little back and 
forth on it, and it is concerning. I am glad it was brought up. 
To what extent are we allowing nonprofits, NGO's, Fortune 500 
companies, and corporate America into the installations to help 
these Wounded Warriors find a job while they are getting 
treated? Mr. Secretary?
    Mr. Campbell. Sure----
    Senator Brown of Massachusetts. Is there any cooperation? 
Is there any foresight, while they are sitting around, to get 
some folks in there to help them find employment once they get 
out?
    Mr. Campbell. Well, we have our TAP program, which 
introduces these transitioning servicemembers to----
    Senator Brown of Massachusetts. I know, but has there been 
anything outside the box a little bit to letting other folks in 
there, the actual job creators and hirers to get in there and 
help, as well? Is there any program or anything like that in 
place right now?
    Mr. Campbell. Senator, at the moment, no.
    Senator Brown of Massachusetts. All right. Thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Brown.
    Mr. Medve and Mr. Campbell, what will you do at the 
headquarters level if you get an indication from the field that 
a site is not ready to go?
    Mr. Medve. Senator, thank you for the question. What we 
have done, actually, to date is when there have been issues 
raised, we have convened a conference call with all the players 
involved and made sure we understand what the specific issue 
is. If it is an issue that requires a solution from VA 
headquarters, then we will apply those resources to it. If it 
is one where we find out that there are just communications 
issues between the localities, then we have actually dispatched 
people to the local areas to work that out and to ensure that 
those problems get solved.
    Chairman Akaka. Mr. Campbell?
    Mr. Campbell. I would just agree with that. There is really 
nothing more to add. Those issues come very quickly to our 
attention because everybody has got my e-mail address. So when 
there is a problem, I hear about it or Secretary Stanley does 
and we act on it immediately, working with the VA to try to 
come up with a solution.
    Chairman Akaka. Mr. Campbell, I am following up on Senator 
Isakson's question. I know that DOD is working to tighten 
eligibility for IDES to reduce return-to-duty rates.
    Mr. Campbell. Mm-hmm.
    Chairman Akaka. Will DOD be finished with fixing its 
policies before the next set of installations are operational? 
And Mr. Bertoni, do you know why there are questions as to what 
the actual return-to-duty rate is? I also believe that it is 
about 26 percent. But let me call on Mr. Campbell for his 
response.
    Mr. Campbell. Thank you for the question, Senator. We do 
believe that we will have a better sense before the next group 
of installations go public, if you will, as to the retention 
percentage. We are working with the Departments right now to 
see what issues there are and how we can close that or reduce 
that percentage.
    Chairman Akaka. Mr. Bertoni?
    Mr. Bertoni. Sure. Let me just piggyback off that question. 
I do believe the referral system is critical to ensuring that 
only folks who should be in the IDES system are in the IDES 
system. Screening and profiling is done across other Federal 
programs. I think it is a way to more precisely assess who is a 
good candidate or should be in the process than to divert 
resources from being spent on them. The services have to go 
through this process for someone who might ultimately be 
returned to duty.
    In terms of the return-to-duty rate, we are not clear how 
they arrived at the 16 percent figure. They may be including 
folks who have dropped or did not complete their case. It has 
to be some larger population fit into the overall figure.
    We went to cases that were completed since inception of the 
program. It is intuitive to us to look at folks who came in, 
went through the gauntlet of various medical exams, and at the 
end of the day got a ``fit'' or ``unfit'' decision. When we 
calculate those numbers, the most recent weekly report came to 
about 26 percent.
    Chairman Akaka. Mr. Medve, as I mentioned during my opening 
statement, I am concerned that VA is already stressed as a 
result of ongoing conflicts, an aging veteran population, and 
the new Agent Orange presumptions. These pressures may 
adversely impact those veterans currently going through the VA 
claims process. What is the Department doing to mitigate this 
concern?
    Mr. Medve. Senator, first of all, we need to make sure we 
all understand that regarding the IDES cases, the VA would see 
them anyway. It is a question of when we would see them. So it 
is not an added burden. It is one that we have already got that 
we know is coming to us. We are just shifting it a little to 
the left from when we do that.
    You know, we have some areas that have backlogs for C&P 
exams. We have brought on additional exam capabilities to help 
eliminate those backlogs, as well. So I think we are taking a 
broad-front approach to solving those problems and we will work 
over the next year to eliminate them.
    Chairman Akaka. Thank you very much.
    Senator Burr?
    Senator Burr. Mr. Campbell, would you like to take a stab 
at the overseas question I asked?
    Mr. Campbell. Yes, sir. We are actually working with the VA 
and the military departments to decide about the best way to 
implement that kind of a strategy. I know myself--I was in 
Ramstein 2 weeks ago and heard exactly the same question that 
you posed, the question about people in the Wounded Warrior 
Units; is there a way that they could be moved back to the 
States to be--because finding a job in Germany is not very easy 
for them, clearly. It is on my list of things to do and I would 
like to get back to you with----
    Senator Burr. I would appreciate it. And I hope you 
understand the concern that I am expressing. When you look at 
this from a common sense standpoint and we hear you are going 
to roll out globally----
    Mr. Campbell. Yes, sir.
    Senator Burr [continuing]. And there is something as 
obvious as this--you cannot call it an integrated program if 
DOD is the only one there.
    Mr. Campbell. Right.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
  John R. Campbell, Deputy Under Secretary, Office of Wounded Warrior 
         Care and Transition Policy, U.S. Department of Defense
    Response. Currently, the Assistant Secretary of Defense for Health 
Affairs, together with the my office (Wounded Warrior Care and 
Transition Policy), other DOD offices, each of Military Service 
Departments and the VA are collaborating to determine the best avenue 
to cover our Wounded Ill and injured Servicemembers serving overseas. 
The initial discussion has centered on re-assigning referred 
Servicemembers back to the Continental United States (CONUS) for their 
medical exam and IDES processing. This may have a secondary positive 
effect for those who are medically separated and retired. Their final 
transition will be closer to home and easier for them to navigate. The 
details are being finalized now and DOD and VA we will share the final 
plans with the oversight committees before implementation.

    Senator Burr. VA, at best, would be a partner through 
teleconferencing or telecommunicating in some fashion, but----
    Mr. Campbell. I will say that there are VA representatives 
in Germany. I know that. I met them.
    Senator Burr. I would love to know how extensive the VA 
presence is abroad given the challenges we have at home.
    Mr. Medve. Well, Senator, as I said before, we have circuit 
riders over there that go around to the different bases to give 
our portion of the TAP briefings and all that. In terms of 
medical--which I think is what you are really getting at--yes, 
we do not have that over there. As DOD finalizes its plan that 
will come out next month, we are working with them on that to 
ensure that there is a solid way forward so that the medical 
examinations, if they are done overseas, meet the template 
standards that we have for C&P exams.
    Senator Burr. Let me ask on behalf of the Committee that 
before any decision is finalized, that you mya at least share 
with the Committee what the intent of that overseas program 
would be. It might save a lot of heartache.
    Mr. Medve. Yes, sir, we will.
    Senator Burr. Mr. Campbell, in your testimony, which I 
think Mr. Medve also highlighted, you have referred to Fort 
Riley in your testimony as a model for other sites to follow 
because of its screening process, screening people that should 
not be in the integrated system. How many people have been 
enrolled in the IDES process at Fort Riley to date, do you 
know?
    [Pause.]
    Mr. Bertoni. Sir, I can take that.
    Senator Burr. Oh, OK.
    Mr. Bertoni. Approximately 200.
    Mr. Campbell. Thank you, Dan.
    Senator Burr. Of those, how many individuals have found 
resolution to their evaluation?
    Mr. Bertoni. Only three cases--I am sorry--194 cases at 
Riley right now, and as of a month ago, there was only one that 
had completed.
    Senator Burr. OK. I would sort of ask both DOD and VA, from 
a standpoint of highlighting the success of Riley, are we 
highlighting just the pre-screening or are we highlighting the 
success of the overall program at Riley?
    Mr. Bertoni. From our position, we are highlighting the 
fact that the leadership was engaged up front. They came up 
with a plan of how to approach implementing IDES. They have got 
a good track record in terms of how they are moving forward, so 
we use them as an example for other sites of how you get 
started at the beginning of your planning and pull everybody 
together to work toward implementation.
    Senator Burr. Am I naive to believe that part of our 
assessment should be how many people complete the process in 
the agreed-upon timeline?
    Mr. Medve. No, sir, you are not.
    Senator Burr. At what point does that come into determining 
the success or failure of a particular site or a particular 
process?
    Mr. Medve. We should consistently be looking at that and 
figuring out what the issue is with output.
    Senator Burr. Let me stop and say that you have no bigger 
cheerleader than me for the success of this program. But I 
think it is absolutely incumbent on those of us here to ask the 
obvious questions to make sure that we have gone through the 
thought process, especially as we consider beginning to roll 
this program out to additional sites while we currently have it 
contained in a number of locations that is somewhat manageable 
to begin to address the challenges.
    I will not ask this in a question, I will make it in a 
statement. I would hope before we roll out to one more site 
that we have successfully addressed the challenges, the 
legitimate challenges that have been raised and at least have a 
plan as to how to resolve those versus a wish, a hope, and a 
dream that as we roll this out, these will either get better or 
we will find a solution. Roll it out nationally, have the same 
number of challenges, have models that we look at that have one 
entity or five entities out of several hundred that have 
crossed the goal line and our model is--or our matrix of 
success was, well, everybody bought into the program but nobody 
is going out the other end, we are going to have a screwed up 
mess on our hands. So my hope is that we will all get the same 
goal in sight and the same tools of measurement.
    Mr. Campbell, DOD set a goal of 20 servicemembers per case 
manager or PEBLO, I guess?
    Mr. Campbell. Yes, sir.
    Senator Burr. What is PEBLO? Is that----
    Mr. Campbell. It is Physical Evaluation Board Liaison 
Officer.
    Senator Burr. I am just going to use case manager. It is 
easier. At Fort Bragg and Camp Lejeune in my home State, they 
had 85 servicemembers for each case manager. What factors led 
to that heavy caseload?
    Mr. Campbell. I know they exist. I do not know if I know 
the reasons----
    Senator Burr. Can you give me a timeline as to when there 
will be enough staff to bring those numbers in line with the 
goal of 20?
    Mr. Campbell. We are working on the problem. I know we are 
putting some dollars toward that problem, working with the 
Departments themselves. But I do not know if I can give you a 
specific date when that caseload issue, when we will get that 
back down to----
    Senator Burr. Share with us in writing what the 
expectations are----
    Mr. Campbell. Yes, sir.
    Senator Burr [continuing]. For resolution of that problem. 
And would you take the opportunity to share with us the 
methodology you used to come up with 20 per caseworker figure 
so that we can understand better----
    Mr. Campbell. Sure.
    Senator Burr [continuing]. Is that the right number? We are 
deeply into a disability problem in this country which we have 
thrown money at for, I think, a decade. I think the Chair would 
agree with me. And with the last expansion of personnel--I 
think 1,900-plus individuals were brought in to process 
claims--the one net result we had was the productivity per 
claims processor went down. So I am somewhat skeptical to just 
adding bodies or throwing money at a problem, believing that 
that problem is going to get resolved or go away.
    Mr. Campbell. Yes, sir.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
  John R. Campbell, Deputy Under Secretary, Office of Wounded Warrior 
         Care and Transition Policy, U.S. Department of Defense
    Response. The most recent data provided by the Service Secretaries 
indicates that Fort Bragg is hiring three new PEBLO's (Physical 
Evaluation Board Liaison Officer's) by 31 December 2010 and Camp 
Lejeune is hiring one GS-12 Supervisor, two additional PEBLOs and one 
Administrative Support staff by 31 January 2011. The Military 
Departments indicate that these hiring actions will bring them to the 
DOD required 1:20 PEBLO to case ratio standard.
    Regarding methodology, an exact ratio for optimal efficiency is 
difficult to identify, as the ratio varies depending on many factors. 
These factors can include, but are not limited to, the type of 
population the PEBLO is supporting (types of injuries/illness); the 
availability of local healthcare resources and additional support 
staffing (for example, administrative help to copy records); the burden 
of other managerial requirements (multiple data entry, training); and 
the use of decision and management support tools (automation tools, 
duplicative data entry). Clinical caseload recommendations have varied 
from 1:15 to 1:50. Currently, the Office of the Under Secretary of 
Defense for Personnel and Readiness is looking at evidence-based 
methods to either verify or update the current policy requirement.

    Senator Burr. Mr. Chairman, I would ask unanimous consent 
to be able to take my further questions and ask them in writing 
because there may be a level of detail there that I would 
rather our witnesses have the time to research and provide 
responses for us.
    But I do want to turn to Mr. Bertoni just for 1 second, off 
of this subject and onto the legacy VA disability process. I 
think you are one of the experts at our system. You referred 
earlier to the difficulty at completing the medical records 
needed to make evaluations, in other words, incomplete 
applications that come in. A complete application is one that 
has all of the information, including the medical records that 
are needed to make a determination.
    If we worked with the VA and created a new program, a 
program that said to veterans and to whoever helps that veteran 
fill out that application, you send us a complete application 
and we will process your claim in X-number of days--30 days, 45 
days, 90 days, whatever it is--but setting the goal for that 
servicemember, that VSO, that service officer to be: do not 
send it until you have got all the information for 
qualification of this program. Would that be a game changer?
    Mr. Bertoni. I do not know. Overall, I do know there is a 
small pilot program, I believe, at VA where it is--I cannot 
recall the acronym or the name--where they do just that. They 
get the servicemember to agree to submit everything timely 
within a specific window and they, in effect, will go sort of 
to the front of the line. If you fail to do that or you fail 
along the line, then you go back into the regular queue. We 
have talked about that as a potential best practice or a way to 
triage cases, but I do not know how that is playing out in 
terms of success.
    Senator Burr. We will follow-up on that. It is my hope that 
we will begin to think of something different, and I think you 
hit on the key. It starts with having an application, that when 
it comes through the door is as complete as it possibly can be 
so that you do not have to go through these timelines of 
reaching out and trying to access the information needed to 
make----
    Mr. Bertoni. Absolutely. And looking sort of at the 
individual stops along the way on this process, that is where 
the Medical Evaluation Board physician, that is where the 
Physical Evaluation Board Liaison and others need to be in play 
to help develop that case, to build that case. As you said, 
ratios do not look great in terms of representatives to 
servicemembers. The ratios are pretty bad in some respects, and 
in each one of those, those quick stops along the way, I do not 
think any of the averages are being met right now in terms of 
the goals for the program.
    Senator Burr. Once again, let me thank the three of you for 
your expertise, your commitment to make these programs 
successful and to evaluate them. I thank the Chair for his 
willingness to hold this hearing and I look forward to the next 
opportunity to get an update. Thank you, Mr. Chairman.
    Chairman Akaka. Senator Burr, you made a unanimous consent 
request and that is still----
    Senator Burr. That I may have the opportunity to ask 
questions in writing.
    Chairman Akaka. Well, without objection.
    Senator Burr. I heard you say, ``So approved.''
    [Laughter.]
    Chairman Akaka. Thank you very much, Senator Burr.
    Mr. Campbell and Mr. Medve, during oversight visits of 
individual sites, Committee staff noted some concern--and this 
has to do with funding--that funding was being taken from 
existing budgets. Will you please explain how the expanded 
program is being funded?
    Mr. Medve. Sir, for the VA, it is being funded through our 
normal process. I mean, as I understand it, it is part of VBA 
and VHA and VA's budget.
    Chairman Akaka. Mr. Campbell?
    Mr. Campbell. My understanding is the same, Senator.
    Chairman Akaka. Thank you. Mr. Campbell and then Mr. Medve, 
the concern as expressed here by other Members, as well, has 
been a concern about implementation. Some believe that the 
current timeline for rolling out the program worldwide is a bit 
aggressive given the challenges that have already been 
identified. What would you say to these critics who question 
that?
    Mr. Medve. Senator, first, what I would say is, yes, we 
have a timeline and a way forward. But that is bounded by our 
criteria-based assessment. So even though we have a quarterly 
rollout goal, I think both Mr. Campbell and I have said before, 
we are making it clear to the sites that they do not go forward 
until everything in that site assessment certification meets 
the standard.
    Chairman Akaka. Your comment, Mr. Campbell?
    Mr. Campbell. Basically the same thing, Senator--that it is 
criterion-based and it is not timeline sensitive in that 
regard.
    Chairman Akaka. In closing, I again thank all of our 
witnesses for participating today. My hope is that we can move 
forward from today's hearing with a better understanding of how 
the current process is working and what improvements need to be 
made as DOD and VA expand IDES. We are looking forward to that 
and thank you again for your responses. It has been helpful to 
us.
    This hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]
      

                                  <all>

</pre></body></html>
